<html>
<title> - [H.A.S.C. No. 114-35]UPDATE ON THE F-35 JOINT STRIKE FIGHTER PROGRAM AND THE FISCAL YEAR 2016 BUDGET REQUEST</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                          [H.A.S.C. No. 114-35]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2016

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

                    UPDATE ON THE F-35 JOINT STRIKE

                   FIGHTER PROGRAM AND THE FISCAL 
                        YEAR 2016 BUDGET REQUEST

                               __________

                              HEARING HELD
                             APRIL 14, 2015

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                              ____________
                              
                              
94-746                 U.S. GOVERNMENT PUBLISHING OFFICE
                              WASHINGTON : 2015
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6502150a25061016110d0009154b060a084b">[email&#160;protected]</a>  
  

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        LORETTA SANCHEZ, California
JOHN FLEMING, Louisiana              NIKI TSONGAS, Massachusetts
CHRISTOPHER P. GIBSON, New York      HENRY C. ``HANK'' JOHNSON, Jr., 
PAUL COOK, California, Vice Chair        Georgia
BRAD R. WENSTRUP, Ohio               TAMMY DUCKWORTH, Illinois
JACKIE WALORSKI, Indiana             MARC A. VEASEY, Texas
SAM GRAVES, Missouri                 TIMOTHY J. WALZ, Minnesota
MARTHA McSALLY, Arizona              DONALD NORCROSS, New Jersey
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
THOMAS MacARTHUR, New Jersey         MARK TAKAI, Hawaii
WALTER B. JONES, North Carolina      GWEN GRAHAM, Florida
JOE WILSON, South Carolina           SETH MOULTON, Massachusetts
                John Sullivan, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Julie Herbert, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     2
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Bogdan, Lt Gen Christopher C., USAF, Program Executive Officer, 
  F-35 Lightning II Joint Program Office.........................    10
Gilmore, J. Michael, Director, Operational Test and Evaluation, 
  Office of the Secretary of Defense.............................     4
Stackley, Hon. Sean J., Assistant Secretary of the Navy for 
  Research, Development and Acquisition..........................     7
Sullivan, Michael J., Director, Acquisition and Sourcing 
  Management, Government Accountability Office...................     6

                                APPENDIX

Prepared Statements:

    Gilmore, J. Michael..........................................    35
    Stackley, Hon. Sean J., joint with Lt Gen Christopher C. 
      Bogdan.....................................................    72
    Sullivan, Michael J..........................................    59
    Turner, Hon. Michael R.......................................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Duckworth................................................    95
    Dr. Wenstrup.................................................    95

Questions Submitted by Members Post Hearing:

    Ms. Duckworth................................................   105
    Mr. Turner...................................................    99
    Mr. Veasey...................................................   107
  
 
  
  UPDATE ON THE F-35 JOINT STRIKE FIGHTER PROGRAM AND THE FISCAL YEAR 
                          2016 BUDGET REQUEST

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                           Washington, DC, Tuesday, April 14, 2015.
    The subcommittee met, pursuant to call, at 3:35 p.m., in 
room 2118, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. The Armed Services Tactical Air and Land Forces 
Subcommittee meets today in open session to receive testimony 
on the current status of the F-35 Joint Strike Fighter, JSF, 
program. This hearing continues the ongoing oversight activity 
conducted by the committee on the F-35 programs. The program 
officially began in 2001. We welcome our distinguished panel of 
witnesses.
    We have Dr. Michael Gilmore, Director of Operational Test 
and Evaluation [DOT&E]; Dr. Michael J. Sullivan, Director of 
Acquisition and Sourcing, Government Accountability Office 
[GAO]; the Honorable Sean Stackley, Assistant Secretary of the 
Navy for Research, Development and Acquisition; Lieutenant 
General Christopher C. Bogdan, F-35 Program Executive Officer.
    I thank all of you for your service and look forward to 
your testimony today.
    The F-35 is a complex program. It is well known that, 
during its development, the F-35 program has experienced 
significant cost, schedule, and performance problems. Current 
acquisition costs are now approaching $400 billion, which, 
according to GAO, makes this DOD's [Department of Defense] most 
costly and ambitious acquisition program.
    Over the last year, steady progress was achieved in 
development, production, and operations, but the subcommittee 
continues to have concerns regarding recent engine test 
failures and on software development and integration.
    This committee, in particular this subcommittee, has 
maintained vigilant oversight on the F-35 program through 
legislation, hearings, and briefings, and, most recently, a 
trip to Eglin Air Force Base, Florida, to see the F-35 
operations and talk to F-35 pilots and maintenance personnel.
    Last year the committee required the Secretary of Defense 
to establish an independent team to review and assess the 
development of software and software integration for the F-35 
program. This subcommittee may recommend a similar approach as 
a way to effectively review the most recent engine test 
failures.
    I understand the substantial investment in the F-35 is more 
about the requirement for fifth-generation tactical fighter 
capability than it is about the F-35 itself. And let me 
underscore that. All of the members of this subcommittee are 
very well aware of the need for fifth-generation tactical 
fighter capability and the need to ensure that the F-35 is one 
of the most capable aircraft.
    Based on the briefings and hearings held by the 
subcommittee, I have learned that fifth-generation tactical 
fighter capability is essential for maintaining air dominance 
and national security. Despite this critical need, that does 
not mean that this program should be rubber-stamped. As we have 
done in the past, the committee will hold this program 
accountable for cost, schedule, and performance.
    The budget request for fiscal year 2016 includes $1.8 
billion for F-35 research, development, test, and evaluation 
and $8.7 billion for the procurement of 57 F-35s, and $410.2 
million for spares. This represents an increase of 19 aircraft 
and is also a $2.5 billion increase in F-35 funding from the 
fiscal year 2015 enacted levels.
    And we all understand that we need to get to a higher 
production level to get the lower per-unit cost. We also 
understand that we have to address the issues operationally for 
the F-35 to ensure its best capability for the pilots and its 
intended needs.
    We will hear today both the Director of the Operational 
Test and Evaluation and the GAO have concerns about the F-35 
program for fiscal year 2016 and beyond. I look forward to all 
of our witnesses' testimony today, which will provide for a 
better understanding of the current status of the F-35 program.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 33.]
    Mr. Turner. Before we begin, I would like to turn to my 
good friend and colleague from California, Ms. Loretta Sanchez, 
for any comments that she might want to make.

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Ms. Sanchez. Thank you, Mr. Chairman. And thank you for 
calling this. I think this is an incredibly important project 
for us.
    So we are looking at the 2016 budget request for the F-35 
Lightning II aircraft program. It totals $10.8 billion spread 
across 17 separate procurement and R&D [research and 
development] accounts. That is an enormous amount even by the 
standards of the Department of Defense's budget.
    The total is, for example, more than the Navy's fiscal year 
2016 request for aircraft carrier and submarine construction 
combined. It is five times as much as the Army's fiscal year 
2016 request for weapons and tracked combat vehicles. So given 
the scale of this proposed funding, I think it is important 
that we try to understand what is going on with the program.
    Since World War II, America's way of war has required air 
superiority. And so airpower is one of the great advantages 
that we give to our military, especially when we are in places 
and it has proven time and time again. So the F-35 program, 
while flawed to this point, is really the key to retaining that 
airpower edge for the next 20 years or so. It is also going to 
be flown by at least 12 allied nations, all of whom are likely 
to be our partners in future conflicts at some point.
    And so there have been some critics who have said we need 
to terminate this program because it is over cost, it is long 
overdue, and there are still problems with it. However, I 
believe that we are past that decision point. We have just got 
to make this program work.
    And I think you will agree with me, Mr. Chairman, we have 
had many discussions on this. We have got to get this done.
    Making it work is not an easy task. It is a very 
complicated piece of machinery, and everybody's had their 
fingers in it. Lots of decision have been made, and lots of 
decisions have been changed.
    I am very still concerned about the engine fire last year, 
which resulted in a setback in the testing schedule. The 
substantive grounding also highlighted the risk of the current 
sole-source engine production arrangement that this program 
depends upon.
    Secondly, the highly sophisticated software for the F-35 
continues to encounter developmental delays. Both the GAO and 
the DOT&E have pointed out in their most recent reports that, 
because of the pressures on the flight testing schedule, a 
significant amount of test points were deferred or entirely 
dropped.
    More specifically, the committee was recently informed by 
the F-35 program office at the start of development flight 
testing of some critical elements of the Block 3F software 
effort are on hold indefinitely, pending more progress on the 
critical fusion element of the preceding Block 2B software.
    In addition to its stealth characteristics, the ability to 
fuse sensor feeds from other F-35s and other sources is one of 
the most important parts of the F-35 program. So, of course, 
this delay is also troubling with respect to the program.
    And the operating and maintenance: The sustainability is 
significantly different than when we envisioned this project on 
the drawing boards. The GAO report noted in particular that the 
F-135 engine is far below reliability targets and that, as a 
result, the overall availability of the F-35 continues to lag 
significantly behind expectations.
    I know that, when we have had other aircraft, new aircraft, 
we have had some of the same problems, not to this extent, not 
in this size, but we do need to get past these issues. So given 
all of these challenges and the very large funding request for 
the F-35 that we are faced with, I think it is important in 
today's hearing.
    And this is what I would like to hear about: Is the 
proposed increase in F-35 production numbers, which would rise 
from 38 in fiscal year 2015 to 57 in fiscal year 2016, 
justified, given where the program is in development? What 
would a reduction in the numbers of aircraft look in particular 
to this program?
    Second, we need a detailed review of what happened with 
that engine fire last year. I have been asking for it. I 
haven't heard it yet. We know that the aircraft and the engine 
in question were relatively new, yet a failure still occurred. 
Is it a manufacturing defect? Is it a design flaw? I would like 
to hear about that.
    Third, the sensor fusion aspect of the F-35 software is a 
little understood, but critical, issue that is still not 
working as planned. What degree of risk do we face with that 
portion of the software? And could problems in this area turn 
what is the current delay of about 3 to 6 months into years?
    So I look forward to getting some of the answers to these 
questions, gentlemen. Thank you.
    And, Mr. Chairman, thank you for indulging me with the 
time.
    Mr. Turner. We will begin with Dr. Gilmore, being followed 
by Mr. Sullivan, Mr. Stackley, and General Bogdan.
    Mr. Gilmore.

STATEMENT OF J. MICHAEL GILMORE, DIRECTOR, OPERATIONAL TEST AND 
         EVALUATION, OFFICE OF THE SECRETARY OF DEFENSE

    Dr. Gilmore. Thank you, Mr. Chairman and Congresswoman 
Sanchez and members of the subcommittee. I will just briefly 
summarize my written testimony.
    Block 2B testing was extended, but is now nearing 
completion. The program developed an additional build to the 
Block 2B mission system software designed to incorporate fixes 
to problems, particularly in fusion of information both from 
the sensors on an individual aircraft as well as from the 
sensors on other F-35 aircraft that were highlighted in testing 
that was conducted in December of last year and early in 2015.
    This so-called engineering test build was flown on 17 test 
sorties using 3 different mission systems to test aircraft in 
March. And although some improvement in performance was 
reportedly observed, distinguishing ground targets from clutter 
continue to be problematic.
    And given the limits in the improvement seen using this 
engineering test build, I understand the program has decided to 
field the current, that is, prior to the engineering test build 
version, of the Block 2B software as opposed to waiting and 
doing additional testing with the engineering test build and to 
defer fixes of the software to Block 3i development and 
testing. If the balance of 2B testing completes in April, this 
would represent a delay of about 6 months relative to the 
program's master schedule.
    Modification of early lot aircraft into a configuration 
usable for combat with Block 2B capabilities, a necessity 
brought on by the concurrency in the program, which dates to 
the program's initiation back in early last decade, is taking 
longer than planned and longer than predicted when the 
Department eliminated, on my recommendation, the block to the 
long-planned Block 2B operational utility evaluation [OUE].
    These delays, as well as other problems that motivated the 
extension of Block 2B testing, indicate clearly that the 
aircraft would not have been ready to conduct the OUE by 
beginning training with operational pilots this past January 
and convinced me that the recommendation I made, which was 
adopted, was the correct one.
    The trends and reliability metrics we track are unclear. 
The most recent data we have obtained generally indicate, with 
the exception of mean flight hours between critical failure for 
the F-35B, a 3-month upward trend, which is good, from 
September 2014 to November 2014. However, when combined with 
data from the previous 3 months, they showed both declines and 
increases. Thus, I cannot yet conclude with confidence that 
reliability is continuing to improve.
    Aircraft availability did show improvement at the end of 
2014, as the program focused on providing greater supplies of 
spares and on shortening maintenance activities that had 
heretofore required longer aircraft downtimes. However, that 
trend has not been sustained so far in calendar year 2015, as 
the first 2 months have shown a decline. But, again, that is 
only 2 months. We shouldn't rush to conclusions about whether 
that constitutes a trend.
    I have also updated my analysis of the growth and 
reliability needed for the F-35A and B variants to achieve 
their requirements based on the most recent data from November 
2014. And that analysis indicates that growth and selected 
reliability metrics for both aircraft, the A and the B, remain 
insufficient to meet requirements of maturity. And there is 
insufficient flight hours in the C variant to preclude that--I 
can't do meaningful analysis at this point in development. It 
is still too early.
    Discoveries in testing continue to occur, which should be 
expected in a program of this complexity, such as was 
highlighted regarding sensor fusion, as well as the occurrence 
of additional unpredicted cracking in the F-35B durability test 
article, which was discovered in February and caused testing to 
pause until repairs could be completed. Testing did restart on 
the 1st of April.
    Flight testing of Block 3i mission systems, consisting of a 
Block 2B software we hosted on the upgraded set of processor 
hardware needed before Block 3F software can be used, we 
started March. And one of the mission systems test aircraft 
began testing the next increment of software that is called 
3iR5.
    Block 3F flight testing also began in March, what was 
limited to three single-ship test flights on one mission 
system's test aircraft, AF-3, prior to it being reconfigured to 
support late Block 3i testing. This start represents an 11-
month delay relative to the program's master schedule and about 
a 1-month delay relative to the program's more recent 
projections.
    Continued Block 3F testing is not scheduled until June, as 
the program's plans for reconfiguring aircraft in the Block 2B 
configuration to Block 3F are under development.
    In both my annual report and my written testimony, I 
identified problems with the U.S. Reprogramming Laboratory, 
which is the government facility that is going to be used to 
generate what are called mission data files for the aircraft--
mission data loads for the aircraft. These data loads are 
essential to the effective combat operations of Joint Strike 
Fighter.
    I had identified 2 years ago shortfalls in those labs. The 
program office has done a study that reconfirmed those 
shortfalls and found new shortfalls. About 2 years ago the 
Secretary of Defense provided resources to correct those 
shortfalls, but no action has been taken.
    It is my understanding, if the program office takes action 
very quickly, those shortfalls can be corrected in time for 
operational testing and, more importantly, for full operational 
capability, and I recommend strongly that that action be taken.
    In my annual report and written testimony, I provided no 
review of Block 2B capabilities and limitations. The program 
has identified and prioritized many deficiencies for 
correction. Nonetheless, Block 2B aircraft will be fielded 
without a number of corrections of operational significance in 
place.
    Further discovery of problems is likely, in my view, as 
operational units start using JSF in ways it has not previously 
been used. I agree with the program's assessment that there is 
at least 6 months' pressure in completing Block 3F, recently 
projected by the program to complete testing in May 2017.
    While the program has worked hard to reduce the bow wave of 
what it calls technical debt, which are fixes to problems that 
were deferred from earlier mission software versions to later 
versions--and that continues to happen--the program is now 
deferring fixes, including problems with fusion and testing to 
Block 3i and Block 3F, which, together with the delays that 
have occurred in starting Block 3 testing, increase risk on the 
program's projected Block 3F schedule.
    Thank you.
    [The prepared statement of Dr. Gilmore can be found in the 
Appendix on page 35.]
    Mr. Turner. Mr. Sullivan, who hails from the great and 
historic Wright-Patterson Air Force Base.
    Mr. Sullivan. Sorry about the Flyers this year, although 
they made it.

  STATEMENT OF MICHAEL J. SULLIVAN, DIRECTOR, ACQUISITION AND 
     SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Sullivan. Chairman Turner, Ranking Member Sanchez, and 
members of the subcommittee, thank you for inviting me here to 
discuss our work on the F-35.
    Let me begin by providing context for where we are today on 
the F-35 by briefly revisiting the past. As we all know, the 
program's overall cost has nearly doubled at this point since 
the program began in 2001 and its dates for delivering initial 
capabilities have been significantly delayed.
    No one would argue that these problems can be traced to 
decisions made then to start the program with little knowledge 
about technologies, designs, or capabilities needed for this 
fifth-generation fighter aircraft.
    A highly concurrent acquisition strategy over the next 
decade resulted in costly airframe redesigns and significant 
software and hardware design changes that cascaded onto the 
manufacturing floor and created more inefficiency.
    In 2012, the program experienced a Nunn-McCurdy significant 
cost breach and the Department took significant action to bring 
realism to cost estimates, add resources to the program, and 
all in all establish a new baseline for cost and schedule 
moving forward.
    So today the F-35 is on much firmer footing and is being 
managed in a way that has stabilized its cost. It is improving 
its ability to deliver aircraft more efficiently, and, most 
importantly, it remains the centerpiece of the Department's 
long-term tactical aircraft inventory and one of its highest 
priorities.
    As we move into the future, it would be nice to be able to 
report that all risk is now behind the program. However, with 
around 40 percent of the developmental flight tests remaining, 
the program has already procured 179 F-35s and plans to add 339 
more over the next 5 years for $50 billion, all before flight 
test is complete.
    This concurrency between testing and buying more aircraft 
is risky. Recent problems with airframe durability testing and 
the engine, continued delays to software development and 
testing with the most complex portions of that software 
development yet to come, and other competing national security 
priorities which will take funding as well, all add to the 
significant risk that remains and will be needed to be managed 
very carefully.
    The recent unanticipated engine and bulkhead failures are 
prime examples of the program's ongoing struggle with 
concurrency and the cost and schedule risk it brings. Programs 
in developmental testing should expect to encounter discoveries 
that require design changes, just as Dr. Gilmore stated.
    However, in a concurrent testing and procurement 
environment, the destabilizing effects of these tests 
discoveries are amplified as more systems are produced and 
delivered, thus requiring costly design changes, retrofits, and 
rework.
    Given these ongoing challenges, it is important that the 
program, the Department, and the Congress fully understand the 
implications of increasing F-35 procurement rates in the near 
term in order to make informed funding decisions.
    In our estimation, the Department should provide answers to 
three critical questions:
    First, are major test discoveries and design changes behind 
the program, given that testing of more complex software and 
capabilities still lies ahead?
    Second, has the contractor's manufacturing capability and 
industrial base progressed enough to meet the proposed 
increased production rates?
    And, third, is the program's current procurement plan 
affordable when viewed within the context of competing fiscal 
priorities both within and outside of the Department?
    Mr. Chairman, members of the committee, that concludes my 
oral statement. I would be pleased to respond to any questions.
    [The prepared statement of Mr. Sullivan can be found in the 
Appendix on page 59.]
    Mr. Turner. Thank you.
    Mr. Secretary.

STATEMENT OF HON. SEAN J. STACKLEY, ASSISTANT SECRETARY OF THE 
         NAVY FOR RESEARCH, DEVELOPMENT AND ACQUISITION

    Secretary Stackley. Chairman Turner, distinguished members 
of the subcommittee, I thank you for the opportunity to appear 
before you today to testify on the F-35 Joint Strike Fighter 
program.
    The Marine Corps variant of the Joint Strike Fighter is on 
track to achieve its initial operational capability, or IOC, 
this summer. This milestone is, of course, but a way point, for 
the software build called Block 2B, which the Marines will 
employ at IOC, provides limited warfighting capability in 
accordance with the program's long-planned incremental build 
plan.
    Full warfighting capability, at least sufficient to support 
the final, of the services and our international partners and 
our foreign military sales customer nations IOCs will be 
delivered in a subsequent software build called Block 3F.
    That notwithstanding, it should not be lost on this 
subcommittee, the significant challenges and adversity that the 
program has and will continue to overcome in order to achieve 
the Marines' IOC and that the milestone will be achieved more 
or less in accordance with the budget and schedule established 
by the program about 4 years ago.
    Today, increasingly, the focus is on delivering the next 
block of capability, Block 3i, which incorporates upgraded 
computing hardware, but otherwise is the warfighting equivalent 
of Block 2B, and, therefore, assessed as relatively low risk. 
We have begun flight testing with Block 3i, and today we assess 
that we are on track to support the Air Force IOC with Block 3i 
capability in the summer of 2016.
    Completion of the final block of capability, Block 3F, 
which is the capability that the services will ultimately 
deploy with, poses the greatest challenge to completion of the 
system development phase of the Joint Strike Fighter program.
    Block 3F software requirements are well understood and 
stable. However, this block includes the most complex 
functionality of the three software baselines, including what 
is referred to as sensor fusion.
    Further, coding and testing of Block 3F has been delayed as 
a result of the resource demands, software engineers, and lab 
facilities associated with supporting completion of earlier 
software builds.
    These factors add up to the program's estimate of 4 to 6 
months schedule risk with completion of Block 3F. Despite the 
schedule risk, we remain on track to support the Navy carrier 
variant IOC with Block 3F in 2018.
    In parallel with completion of the system software and 
related flight testing leading to each of the service's IOCs, 
the program is managing the resolution of technical issues that 
have been discovered in testing; the ramp-up of production of 
the three aircraft variants across a large and growing 
industrial base that supports JSF; improvements to 
affordability and production; incorporation of modifications to 
correct deficiencies identified on earlier production aircraft; 
needed improvements to reliability and maintainability of the 
aircraft; planning and assignment of maintenance, repair, 
overhaul, and upgrade, or MRO&U, responsibilities across the 
global regions where the JSF will operate; and formulation of 
the program operations and support strategy with its own focus 
on affordability.
    To briefly summarize, today's scorecard on technical issues 
largely reflects a large list of issues that are well 
understood with fixes either under development or in various 
stages of implementation. That said, we are wary that further 
technical issues are certain to emerge as we press on with 
system testing, and it will be critical that the program 
rapidly correct these deficiencies while mitigating their 
impact on test and production.
    The most notable technical issue which emerged this past 
year, a rub condition between the engine rotor and rotor seal, 
led to an engine fire and brought flight testing to a 
standstill for several weeks while the root cause of the issue 
was being determined. We are confident that this technical 
issue is resolved and are proceeding with implementation of the 
fix across the fleet of affected aircraft.
    Aircraft production is demonstrating healthy labor learning 
curve performance, improving quality trends, improving schedule 
performance and lot-over-lot unit cost reduction. This is as 
expected for a program at this stage.
    To spur a greater cost improvement, the program, led by an 
industry initiative, has launched an effort referred to as 
Blueprint for Affordability, which has established a target 
unit cost for the F-35A of about $80 million by 2019.
    We are embarking on similar concerted efforts in order to 
improve aircraft reliability, maintainability, and 
availability, or RM&A. Overall, performance in this area has 
been poor.
    It is only in the past 6 months that improvements to 
design, parts availability, and maintenance, training, and 
support are starting to show needed results, providing a 
positive sign that we may meet our interim RM&A requirement of 
60 percent aircraft availability by year's end. RM&A is a 
principal focus area for the program in 2015.
    Lastly, the program is working closely with the services 
and our international partners and industry to formulate the 
operations and sustainment, or O&S, strategy for the Joint 
Strike Fighter.
    The effort encompasses activities stretching from 
completing development of logistics tools, to standup of depot 
facilities, to supply chain management, engineering and 
software support, and determination of the business plan that 
will accompany each of these activities and an overarching O&S 
war on cost.
    In summary, while maintaining its focus on achieving the 
services' initial operational capability milestones, the JSF 
program is also systematically tackling a large number of risk 
items and issues that confront this program across the full 
spectrum spanning development, test, production, operations, 
and sustainment.
    We are experiencing improving trends in virtually all 
areas, but we are painstakingly aware of the significant 
challenges that remain ahead and are committed to meeting those 
challenges head-on with discipline, with rigor, and with full 
transparency.
    Mr. Chairman, we look forward to answering your questions.
    [The joint prepared statement of Secretary Stackley and 
General Bogdan can be found in the Appendix on page 72.]
    Mr. Turner. General Bogdan.

   STATEMENT OF LT GEN CHRISTOPHER C. BOGDAN, USAF, PROGRAM 
   EXECUTIVE OFFICER, F-35 LIGHTNING II JOINT PROGRAM OFFICE

    General Bogdan. Chairman Turner, distinguished members of 
the committee, thank you for the opportunity to address you and 
to discuss the F-35 Lightning II program.
    My overall assessment of this very complex program is that 
we are making slow, but steady, progress on all fronts and each 
day the program is improving. However, this is not to say that 
we don't have risks, challenges, and some difficulties, but I 
am confident we will be able to overcome these problems and 
deliver on our commitments.
    Today, in development, we've completed our Block 2 software 
development and are nearing completion of all flight testing 
necessary to field our initial warfighting capability, also 
known as Block 2B, which is on track to support the Marine 
Corps IOC this summer.
    Additionally, we are currently in full-swing testing of our 
Block 3i software, which is on track to support Air Force IOC 
in the summer of 2016, and we have just begun flight testing 
our final version of software known as Block 3F, which will 
provide the full combat capability of the F-35 in late 2017 and 
support the U.S. Navy's IOC in 2018.
    However, because we have been using our labs and test 
aircraft to complete both 2B and 3i testing for longer than we 
anticipated, flight testing of Block 3 was delayed. This delay, 
along with the complexity of the 3F software integration, has 
resulted in an additional risk of approximately 4 to 6 months 
for the completion of that 3F software. We are working hard to 
bring this potential schedule delay back in on time, and we do 
not believe it will impact the Navy's IOC in 2018.
    We have had numerous accomplishments in 2014 in flight 
testing, most notably the F-35C initial sea trials aboard the 
USS Nimitz, a large-deck carrier. Our performance on the Nimitz 
in terms of carrier landings was excellent in that we completed 
124 traps out of 124 attempts without a single missed landing 
and we completed all the planned testing on that ship with 
about 3 days to spare.
    Additionally, we have closed and are implementing fixes for 
a number of past technical issues, including improvements in 
the helmet, the hook on our C model, our fuel dump capability, 
our fusion software, lightning restrictions, and night and all-
weather flying.
    However, this past year presented other challenges that 
included an engine failure on AF-27 at Eglin Air Force Base and 
the discovery of cracks in the main bulkheads of the B model 
during our durability testing. We are also carefully monitoring 
the development of our maintenance system, known as ALIS 
[Autonomic Logistics Information System], as it remains on the 
critical path for U.S. Marine Corps IOC, Air Force IOC, and our 
Block 3F capabilities.
    I am prepared to provide details of these events and the 
impact they have had on the program or may have on the program 
during the Q&A [question and answer] period.
    As for production in 2014, we planned to deliver 36 
aircraft and we delivered 36 aircraft to our warfighters. We 
have now delivered a total of 130 aircraft to our operational 
test and training sites. The production line today is running 
approximately 2 months behind, but it is catching up over the 
past year and does not pose any long-term schedule or delivery 
risk to the program.
    The price of the F-35s continue to decline steadily lot 
over lot, just as we have committed to, and I expect such 
reductions to continue long into the future.
    Let me turn to fielding the sustainment of our fleet. As of 
this week, we have logged over 30,000 flight hours and flown 
over 18,000 sorties since our first flights in 2006. Today 130 
F-35s are operating at 9 different U.S. locations. In the next 
4 years, we will add 322 airplanes and over 17 new bases, 
including operational locations in Europe and the Pacific.
    Over the past year and a half, we have put a great deal of 
emphasis on maintenance and sustainment activities. We started 
a reliability and maintainability program last year, and the 
effort is beginning to make a positive difference, as we have 
seen a steady, but slow, improvement in our aircraft 
availability rates and our mission-capable rates.
    We also started a number of initiatives to address our 
spares issues, including better forecasting, more timely 
purchasing and contracting, and shortening repair cycles on our 
parts, all of which resulted in modest improvements thus far, 
but it will take at least another 6 to 12 months to fully 
recover from our spares deficit.
    We also began a number of other important initiatives late 
in 2013 and 2014 to include our ops and sustainment Cost War 
Room, the Blueprint for Affordability, as Mr. Stackley 
mentioned, and a restructuring of the operational test program. 
I would be happy to discuss these initiatives in the Q&A 
session, also.
    On the international front, the partnership remains strong 
and some of our partners are now flying their own jets in 
training and operational test sites in the United States, while 
others are eagerly anticipating their first jets in the next 
two lots of airplanes.
    Additionally, last year South Korea signed a letter of 
acceptance and committed to buying 40 jets and Israel committed 
to an additional 14 jets on top of the 19 they are already 
purchasing.
    I would like to close by saying that the program is showing 
steady improvements as costs continue to come down, technical 
issues are being resolved, and the baseline schedule is mainly 
holding. I believe the program is on the right track, and we 
will continue to deliver on our commitments we have made to 
warfighters, the taxpayers, and our allies. My team will 
continue to run this program with integrity, discipline, and 
transparency, and I intend to hold myself and my team 
accountable for the outcomes on this program.
    Mr. Chairman, I look forward to the Q&A period.
    [The joint prepared statement of General Bogdan and 
Secretary Stackley can be found in the Appendix on page 72.]
    Mr. Turner. Thank you, General.
    Secretary Stackley, General Bogdan, a group of us went down 
to Eglin Air Force Base 2 weeks ago or so and sat down with 
both the pilots, the maintainers, the command, to discuss the 
F-35. And, as you know from my opening statement and that of 
the ranking member, you have full and complete support from 
this subcommittee and the committee on fifth-gen development.
    We certainly understand some of the difficulty overall with 
concurrency. And, you know, it is a vogue word to mean 
inventiveness. Right? I mean, at the same time that we are 
building, we are inventing and we are trying to have a fluid 
process so we don't end up with a product that is stale but, at 
the same time, we end up with a product and we don't merely get 
stuck in the inventive process.
    How those two converge is where Mr. Gilmore and Mr. 
Sullivan continue to provide us with fidelity as to how 
problems result. And the issues that we see in both their 
reports are obviously when a problem is identified, how quickly 
is it resolved; when a problem is identified, what is its 
effect on cost; when a problem is identified, how does it 
relate to our foreign partners and the delays, as we know, 
because we have to get to a ramp-up so that our overall product 
costs go down on a per-unit basis.
    Our trip was not in questioning the overall fifth-
generation commitment or capability, but to talk to those who 
were on the ground to get some understanding of their 
perspective. Some of the things that we learned were disturbing 
and concerning. As you know, they are down there both actively 
flying, actively maintaining, actively training, and then being 
what will be the footprint later as the F-35 is expanded 
elsewhere.
    But one of the issues I want to talk to you about and I 
want to get your feedback is the Autonomic Logistics 
Information System, ALIS. So we had a treat. We got to sit down 
and watch someone actually go through the web pages of the 
system--and I am slowing down for effect because that is what 
we got to see as they got to it--and the cumbersomeness of the 
difficulty of going from page to page in trying to be able to 
enter information.
    Now, the ALIS system--real quick overview--is basically the 
system that you plug the plane in and it is supposed to tell 
you what is wrong with the plane and what is not wrong with the 
plane. It is supposed to aid maintenance. It is supposed to 
give a download for logistics for acquisition of parts. It is 
supposed to do an overall assessment of the readiness and 
capability of the plane.
    But we are also told it has an 80 percent false positive. 
They went through the process. They were telling us the purpose 
of the system. It sounds absolutely wonderful. Certainly I 
think everybody who has a Cadillac understands, you know, a 
system that tells you what is going on with your car, what is 
going on with your plane.
    When we asked them how many false positives you get, I 
thought that they were going to tell us a high number because 
it is still a new system. But when they said 80, I was kind of 
taken aback. But then, when they showed us how difficult it was 
to clear 80 because of the cumbersomeness of the system, I was 
curious as to who is assigned to clean this up.
    But what we probably have with false positives, as you 
know, is, one, either people get complacent and believe things 
are false positives and they get overly cleared or, two, we 
also don't know what false negatives we have and was the system 
not reporting.
    So I would like both of you to tell us: Is what we are 
hearing consistent with what you are hearing? If so, what is 
the path forward in fixing the system and how does it represent 
an operational issue or impediment overall to the F-35?
    Secretary Stackley. Yes, sir. I will start and hand it over 
to General Bogdan.
    I don't know if the 80 percent number is exactly right, but 
the issue of false positive is very real. And concerns with 
regards to the reliability, the responsiveness, the timeliness 
of ALIS information for the maintainers and for the warfighter 
is at the top of our priority list.
    We scorecard readiness for initial operational 
capabilities, and we look at all the attributes associated with 
the program. And when you look at the services' IOCs as rated 
by the program office and as rated by the services themselves, 
ALIS's performance is a very high concern, high priority, 
because it is not currently meeting the requirements of the 
warfighter in terms of the maintainability aspects on the 
program.
    So it is a real problem. It is a known problem. The 
solution is not a single, simple issue. It is going after all 
the details inside of ALIS. It is a large, complex logistics, 
software-based system.
    And we have been on this path for several years now, since 
it was first introduced and put in the hands of the 
maintainers, and they identified the issues with everything 
from data reliability to timeliness. And this false positive 
issue has been brought to our attention more recently.
    So there is versions of software upgrades to ALIS that are 
planned that capture the known deficiencies. They are tested 
before they are turned into the field. And then, when they are 
put in the hands of the maintainers, we get that user feedback.
    So I will tell you that the program is improving. It is not 
where it needs to be. Our scorecards--right now you will see 
red next to ALIS, which has our absolute attention. And we have 
got a lot of work to do, but there won't be one leap from that 
red to that green. It is going to be a series of upgrades to 
ALIS software where we are going to have to drive in those 
incremental improvements to get it up to the level of 
performance that we need.
    Mr. Turner. One footnote and then I am going to do a 
follow-on on A-L-I-S or ``ALIS,'' as you were saying.
    I was also shocked that there is no spell check. So while 
the gentleman was there typing something in, there was no 
indication that something was misspelled, but he had to catch 
it and he had to go back and fix it.
    My concern is not an academic one. My concern was--because 
human error is human error--it is not searchable if someone 
makes a typographical error. If the system is supposed to be 
searchable, we have got to determine what is recurring in the 
system. So certainly that should probably be an addition to it.
    But the other aspect was, as I was describing it, the 
downstream aspect of A-L-I-S or ``ALIS'' issuing a report for a 
part. They are very concerned about that whole system, both 
with the prime contractor's scale of control, the availability 
of those parts, the reporting back of the availability of those 
parts.
    If there is no inventory on site, they are very concerned 
of the ability of their planes to continue to be able to 
operate and how the system itself--because it is assuming that 
they are not going to be able to fix it on hand and it is going 
to report a problem and then result in a part being delivered, 
that that just-in-time aspect may be a constraint on overall 
operation capability.
    Do you have concerns there, also? General Bogdan, you are 
nodding.
    Secretary Stackley. I will tell you that that is evolving. 
There was a vision for what ALIS would do and how this program 
would be sustained that was established years ago. We are past 
that point today.
    And the operation and sustainment plan for the program is 
evolving and being developed today with industry, with our 
international partners, frankly, to do better than what you are 
hearing from the maintainers today on the flight line.
    Mr. Turner. Thank you.
    I am then going to Timothy Walz.
    Mr. Walz. Thank you, Mr. Chairman.
    Thank you all for your testimony.
    I do agree that the importance of this weapon system as to 
our airpower and our national security strategy is pretty clear 
to everyone. I also appreciate your optimism, but I don't think 
we could come here without the skepticism that is probably 
healthy in any endeavor that we do.
    So just a couple of things I would ask. And I am going to 
build on this last question on long-term viability and 
sustainability because the issues we are talking about are just 
getting us to the baseline and where we go from there.
    And so, Mr. Sullivan, on several occasions, I think you 
have been thoughtful about it and raised long-term 
affordability as a key area of risk. Is that addressed? Do you 
see that moving in the right direction? And do you still 
consider--I think it is obvious and wise to think that way. But 
where are we headed with it?
    Mr. Sullivan. Yes. I think there is two separate things. 
There is the cost estimate on the program, which is approaching 
$400 billion. I think that is in control.
    The software issues we are talking about are going to add 
cost on the margins, I believe. It is mostly an issue of risk, 
of being able to do what they say they are going to do.
    The affordability issue, from our point of view, is the 
funding profile that this program--that the Congress, quite 
frankly, is looking at over the next 20 years just for 
acquisition, just for--development cost is coming down now. I 
think development cost will be done in 3 or 4 years.
    But over the next 10 or 15 years, this program is going to 
come to the Congress every year with--we mentioned today it is 
$10 billion for this fiscal year. That will get up to $15 
billion in a few years, and it is going to average $12.5 
billion beyond the foreseeable future.
    What typically happens is that past programs that begin to 
run into these kind of funding issues--usually, at some point, 
if other national priorities have to be taken care of, there is 
a lot of big weapon systems that are vying for the funding. The 
Navy and the Army and the Air Force has its own. The tanker is 
one. Long-range strike is one.
    Something has to give, and a lot of times it is quantities. 
You know, you get to a point--the F-22 is an example where they 
wanted to buy 750 and the funding profile was so straining that 
they wound up having to cut quantities.
    Mr. Walz. Is there anything that indicates to you--because 
I would say the members sitting here understand from 
sequestration to national debt, to competing priorities, 
nothing is going to change that.
    I think the estimate is over, if you will, a 50-year 
lifecycle of this is $1 trillion. We are not quite halfway 
there yet. The fortitude to come back every year is one that I 
think we are going to have to think about and think about 
deeply.
    Mr. Sullivan. Yes. I was just talking about the acquisition 
cost. Now, when you include the total ownership cost or the 
operation and support cost, which is right now estimated 
anywhere from $850 billion to a trillion dollars over 30 years, 
that is cost on top of that.
    So some of this discussion about ALIS is interesting. 
Because one of the things that the Joint Strike Fighter was 
supposed to be able to do was have a lot of commonality across 
a variance and reduce a footprint, and it hasn't really come 
out that way. There were a lot of technologies they were 
counting on early in this program that I don't think they have 
been able to achieve.
    Mr. Walz. And I realize how difficult this is. But I can't 
stress enough, if it falls short in any way of achieving these 
things, the difficulty on those dollars are going to be even 
more. I mean, it has to do everything that it says it is going 
to do.
    And so I am going to ask--and I know this is subjective, 
but I think it is important for us because this is looking 
ahead--what is this hearing going to look like in April of 
2016, when we come back and hold this hearing on the F-35? How 
big of difference are we going to see? Is this thing going to 
be doing what it is supposed to do?
    Secretary Stackley. I will take that. I will start.
    A year from now we will have the Marine Corps--we will have 
IOC, their version of the aircraft. We will be working on 
completion of 3i testing and will be heavy into the 3F testing.
    I think, as Mr. Sullivan described, your concerns with 
cost--I think at this point in the program we can see the end 
in sight in terms of R&D [research and development] costs. 
There are still some risks, and we will tackle those risks. But 
those aren't going to threaten the program.
    What we have to do is continue to drive down cost in 
production, because we still have about 2,800 aircraft to 
manufacture and that heavy weight in terms of production costs. 
We have got to go at that from our side in the program to drive 
the costs down. That bigger issue of affordability has to deal 
with our budgets.
    And so where will our budget be--when we are sitting here 
in April of 2016, where will our budget be? Will we have been 
sequestered? What will have happened to the top line?
    You have heard the services testify with regard to the 
impact of sequestration. If we are sequestered, that will have 
an impact on this program, and that will then directly have an 
impact on affordability.
    Mr. Walz. I appreciate that.
    My time is up, Mr. Chairman. Maybe we will get that in 
another member's question. Thank you.
    Mr. Turner. Thank you.
    Mr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    When we went to Eglin, we spent some time with the pilots 
and asked them what are the problems that they are finding. 
And, you know, that is certainly the best way to find out, I 
think, is to actually talk to them. And I know that I think you 
have been briefed on it and seen the list.
    And I guess kind of parlaying on what Mr. Walz asked, how 
many of these things that you see here--and I could go through 
them all; don't necessarily have to--will we be able to address 
in the next year?
    General Bogdan. Over the past 2 years, we have faced a 
number of technical issues that 2 years ago or a year ago, if 
you had said, ``Where will you be in April of 2015?'' I would 
have told you, ``Well, I would like to have this retired and 
that retired and that retired.''
    So let me give you a list of a few of the things that we 
have retired and now a few of the things we are working on in 
2015 when we come back next year will hopefully retire.
    A year ago there was a lot of speculation and discussion 
about how good the helmet was going to be, the Generation III 
helmet, because the Generation II helmet had some shortfalls. 
It had a jitter problem. It had green glow problems. It had 
latency problems. It wasn't good enough for the warfighter.
    Today I can tell you we are flight-testing the Gen III 
helmet right now and all indications are from the test pilots 
is that it is much improved, much improved. So I put a half a 
checkmark in that box and say, ``Okay. We are controlling 
that.''
    Last year we had a major engine problem. I will tell you 
today we have the solution for that engine problem. It is being 
put into the field. And by this summer, I will have the final 
production version of that fix into the production line and 
that will be behind us.
    We had a problem with lightning. We were having a problem 
qualifying the airplane to fly in lightning last year. That 
problem is basically behind us.
    And, in fact, I don't know if the guys at Eglin told you, 
but 2 weeks ago a CF-8 flying--returning from base was struck 
by lightning. He was in clear air and he was struck by 
lightning, and absolutely nothing bad happened to the airplane.
    The pilot landed the airplane. No warnings and cautions. No 
problems. And we could see where the lightning went into the 
right wing tip and came out. So lightning is another one we 
would put on that list of last year a problem, not a problem 
this year.
    Fuel dumping was a problem last year because the fuel dump 
on the airplane comes from the bottom of the wing. And so, when 
you dump fuel from the bottom of the wing, there is high 
pressure there. It pushes the fuel up onto the wing and it 
sticks and it makes the wing wet. We have solved that problem.
    So those are just a few of the things that a year or two 
ago were high on our list. What is high on our list this year?
    We already talked about ALIS. ALIS has a long way to go, 
sir. It is a complicated 5-million-lines-of-code piece of 
equipment that we started treating like a piece of support 
equipment. It is not. It is an integral part of the weapon 
system.
    So we have had to take steps in the last 2 years to change 
fundamentally the way we develop ALIS. We have applied the same 
techniques we used in developing software on the airplane to 
now developing software in ALIS. It is just going to take us 
some time to realize those results.
    We had a problem with the hook. When we first tested the 
hook on a C-model a year and a half ago, we missed seven out of 
eight traps at Lakehurst. We went out to the boat last year and 
hit 124 out of 124.
    So I guess what I am expressing here is we are going to 
have more technical problems on this program. It is a measure 
of a good program for you to be able to absorb those, find 
fixes for them, and then continue moving the ball down the 
field on the program. I think we are in a better position now 
than we ever have been to address those kind of problems.
    Dr. Wenstrup. Well, you are there and you know these things 
are being addressed. I think it kind of took us a little by 
surprise, the 80 percent, and it was said kind of casually, 
like, ``80 percent? Like, that is far from good.''
    General Bogdan. Can I make two comments about that just to 
kind of put it in context?
    The first thing is--and that is not to mitigate the fact 
that we know we have a problem there--the jets down at Eglin 
are the oldest ones we have. They are flying 1B software and 2A 
software, and they are Lot 3 and 4 airplanes.
    So they are flying the dogs of the fleet, quite frankly, 
because many of the newer lots of airplanes have many of the 
improvements we have learned over the last 2 to 3 years. And 
the newer software that we are using on the 2B airplanes is 
going to make that even better.
    So I can understand the guys down at Eglin feeling like, ``I 
don't have a very good airplane here after all this time, 
energy, and money, General Bogdan.''
    When it comes to the false reporting, we call those things 
HRCs, health reporting codes. And on any given sortie, you may 
get two or three or four of them.
    What I believe when they are telling you 80 percent is, 
when you actually get a health reporting code on the airplane 
and you land, the ones that you get, 80 percent of them turn 
out to be not good, not that 80 percent of all--every flight 
you have got problems with the airplane that you don't know 
about.
    What we have done is we have gone in and we have started to 
change the software both in ALIS and the airplane to address 
that. But at the same time, we now have a history of which 
health reporting----
    Mr. Turner. I am sorry to interject here, General Bogdan. I 
just want to make certain you are not confused, although I 
think I may be.
    When they say 80 percent false positives, they mean, out of 
100 items where it says there is something wrong with the 
plane, 80 of them are nothing is wrong with the plane, but they 
are given a notice that something is wrong and then they have 
to deal with that notice----
    General Bogdan. Correct. Correct
    Mr. Turner. By the way, Secretary Stackley cringed when 
you----
    General Bogdan. No. You got that right, but here is what I 
am trying to say.
    The other important question that they should have told you 
was each airplane, when it lands, only has about four or five 
health reporting codes a sortie.
    Mr. Turner. We saw the list. I mean, the point here being 
that, if something is telling you 80 percent of the time wrong 
information, it is suspect. Right?
    General Bogdan. Yes, sir. And I am going to go check that 
80 percent number and get back to you. And it is a problem. We 
know it is a problem, and we have to address it.
    [The information referred to can be found in the Appendix 
on page 95.]
    Mr. Turner. Thank you.
    With that, Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    I find it comforting that--or maybe not so comforting to 
think that the question I really wanted to talk about was ALIS 
and it is one that is of concern to the chairman. As a former 
aviator and, also, a logistics officer, let's talk maintenance 
and logistics and ALIS.
    I am concerned that the manpower it takes to clear every 
single one of those false positives--false negatives is driving 
up maintenance costs and now you have got more and more man-
hours or person-hours or airmen-hours or contractor-hours that 
have to clear every single one of those.
    In addition, whether it is 80 percent or whatever it is, I 
would like to know--and you don't have to give it to me today 
because I doubt, General, that you have it--how often are you 
getting a circle red X or a red X status on aircraft that is 
driving down the aircraft availability for missions and for 
different mission profiles? Because now, even if it is a false 
positive, you are affecting mission readiness for the aircraft.
    And you talked about problems with the system in the past, 
not necessarily ALIS, but problems that have been fixed, last 
year the helmets--Generation II and Generation III helmets.
    Is there a timeline in place to fix all of these problems 
with ALIS? Do you have benchmarks in place: ``In 6 months you 
will have X number of lines of codes fixed and within a year we 
will be at this point''?
    And then the final question is--one of the issues is not 
even software. We are talking about the size, bulk, and weight. 
My understanding is, during the carrier integration phase, ALIS 
could not deploy and, instead, the USS Hornet [USS Wasp] had to 
rely upon the ALIS system at Fort Worth, Texas, for logistical 
support because it was too bulky to deploy onto the [Wasp], 
which, you know, as someone who flew small aircraft, if you 
couldn't carry it in the aircraft or sling-loaded under the 
aircraft, it didn't go with you. The idea that you would have 
an integral part of your maintenance system that can't even fit 
on the USS [Wasp] is very, very troubling to me.
    General Bogdan. Yes, ma'am. Relative to the plan, we 
absolutely do have a plan for ALIS. As I said before, until 
about 2 years ago, we weren't treating ALIS much other than a 
piece of support equipment. We now recognize that it could be 
its own weapons system.
    So we have put all the system's engineering discipline, the 
software metrics--the same kind of things we did for the 
airplane we are doing for ALIS. So, as an example, this summer 
the U.S. Marine Corps will declare IOC with a version of ALIS 
we call 2.01. Today in the field we have Version 1.03. So there 
is an upgrade program going on.
    The U.S. Air Force next summer will get 2.02 because we are 
doing incremental upgrades on ALIS. I will take it for the 
record that we will show you that integrated and incremental 
plan to improve ALIS.
    Relative to the deployability of ALIS, you are spot on, 
ma'am. Today ALIS sits in a squadron and it is a rack of 
computers that weighs probably 800 to 1,000 pounds. We 
recognized a year and a half ago that was not going to work for 
deploying forces.
    So today we are redesigning ALIS into what we call a 
Version 2 deployable version. That will be ready for the Marine 
Corps this July. It is two-man portable. It comes in about 
three or four different racks. They take it apart and--two men 
can put it back together and take it apart.
    In the future, we will build all of the ALIS system in this 
deployable configuration and we will get rid of the old 1,000-
pound racks we have at the squadrons now. But you are right on, 
ma'am.
    Ms. Duckworth. I would like to make several requests, 
General.
    I would like to know what you think will be the point of 
acceptable for ALIS's performance, 80 percent--whatever you 
said. I am sorry to be all up your tailpipe in this, but we 
have gotten to the point where Members of Congress are really 
concerned.
    So what are you determining to be acceptable? When will you 
get there for the software system? You already told me what 
acceptable is for the size. Right? You said July, two-man 
portable.
    And then I would like to know what the maintenance cost has 
been due to the false positives and how much of that cost will 
be decreased and what you expect that cost to be in terms of 
increased manpower hours for both your uniformed personnel as 
well as for the contractors and all the maintenance that comes 
about with having to clear every one of those codes.
    General Bogdan. That is a great set of questions, ma'am. I 
will take them for the record and we will plan on having that 
discussion after this hearing.
    [The information referred to can be found in the Appendix 
on page 95.]
    Ms. Duckworth. Thank you.
    I yield back, Mr. Chairman.
    Mr. Turner. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your testimony.
    Dr. Gilmore, in your testimony, you talk about the 
limitations of the F-35 in close air support. Specifically, you 
mentioned that the aircraft will need to be under the direct 
control of a forward air controller using voice communications, 
there is no ability to use an infrared pointer, there is no 
ability to have night vision capability--this reminds me of 
something before the A-10, by the way, not after the A-10--only 
have 20 to 30 minutes time on station, the current 2B would 
only have two weapons, but, then, even the follow-on is only 
going to have 180 bullets even if you are mounting the external 
gun.
    And so I am concerned about the capabilities in the close 
air support, forward air control, and combat search and rescue 
mission that the F-35 is going to be serving as it replaces 
aircraft like the A-10.
    So how many of these shortfalls--and I just mentioned a few 
of them--will actually be fixed in the 3F? And how many are 
just inherent, like the 20 minutes time on station and the lack 
of really total weapons capability?
    When you think of close air support aircraft like the A-10, 
it is the survivability, the lethality, which means weapons 
load, and the loiter time that really make it capable to keep 
Americans alive. And I am concerned on the second and the third 
I mentioned, loiter time and lethality as far as weapons load.
    And, also, are any tests, including survivability--you 
know, can they take hits like the A-10 can of a SAM [surface-
to-air missile] and triple-A [anti-aircraft artillery], small 
arms, and still be able to fly back? Are you testing those 
types of things in a low-threat, so to speak, close air support 
environment, which is what we have been doing the last 25 
years?
    Dr. Gilmore. With regard to the time on station, the 
numbers you quoted were for the F-35B, and that was 20 to 30 
minutes. Now, you can extend that by refueling with tankers, 
but then, of course, you have to plan for the tankers.
    The F-35A would have up to about 45 minutes on station. 
That compares with about 90 minutes on station for the A-10. 
And that is something that will--you know, that is a limitation 
that will persist because of, you know, the engine and other 
aspects--aerodynamic aspects of the aircraft.
    With regard to some of the other limitations that are 
discussed in my testimony, like, for example, the deficiencies 
in the digital communications, you know, there are problems 
with the nine-line message. Not all elements of it are accurate 
at this point. It doesn't work correctly.
    And so it will require some voice communications if you are 
performing CAS [close air support], if you are trying to do 
that with a Block 2B aircraft, and--you know, as opposed to 
the--you know, the digital nine-line that you can use in the A-
10, the Harrier, and the F-16. Those problems are, you know, 
planned to be corrected in Block 3F.
    Ms. McSally. Okay.
    Dr. Gilmore. Block 3F will provide additional weapons loads 
and mixed weapons loads as well as external weapons. So the 
weapons load will increase in Block 3F.
    Some of the other problems that, you know, will probably--
if you are using a Block 2B aircraft, would require greater 
coordination with a forward air controller will, based on what 
the program hopes to achieve in Block 3F, you know, be fixed.
    And, in fact, if everything that is realized in Block 3F is 
realized, I think it would be safe to say that you will have 
much better situational awareness in a F-35 than you would in 
an A-10, again, if all these Block 3F capabilities are 
realized, but the Block 2B capability is going to be limited.
    Ms. McSally. Great.
    And the survivability piece, I mean, are you----
    Dr. Gilmore. We are----
    Ms. McSally [continuing]. Evaluating its ability to take 
small arms, triple-A, SAM hits and still be able to fly back?
    Dr. Gilmore. Yes. My annual report describes some of the 
testing that has been done, you know, testing against hits by 
certain kinds of weapons that, you know, could be employed 
against the aircraft if it were flying low as well as if we are 
engaged in air-to-air combat.
    The aircraft has some vulnerabilities that you would have 
to expect a high-performance aircraft to have. And the A-10 is 
going to be able to--you know, can take hits that an F-35 
couldn't take.
    But I don't think that the plan for having the F-35 conduct 
CAS is equivalent in all operational aspects to the way the A-
10 would conduct CAS, and the plan would probably be for the F-
35 to stand off more from many of these threats that the A-10 
does not stand off from.
    So, you know, the survivability of the F-35 against some of 
these threats isn't going to be as good as the A-10, but I 
think the operators would say that they wouldn't use the F-35 
the same way they would use the A-10 to do close air support.
    Ms. McSally. And thank you. My time is expired.
    But I will share, as a former A-10 pilot and squadron 
commander, there are times and there will still be times in the 
future when you must get down and dirty with the guys on the 
ground, who are often on the run, unable to give you their 
coordinates, and you have to visually be able to see where are 
the good guys and the bad guys.
    And so you cannot stand off in all CAS scenarios even in 
the future, and that is a concern I have with the limited 
capabilities in replacing the A-10. But my time's expired.
    Dr. Gilmore. And I agree with you, Congresswoman.
    Ms. McSally. Thank you.
    Thank you, Mr. Chairman.
    Mr. Turner. Turning to Joe Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Dr. Gilmore, tomorrow we are having a full committee 
hearing on the risk of losing military technology superiority 
and its implication for U.S. policy, strategy, and posture in 
the Asia-Pacific.
    What is your opinion of the continued development and 
production of the F-35 program as critical to our military in 
maintaining its technological superiority?
    Dr. Gilmore. That is for me?
    Mr. Wilson. Yes.
    Dr. Gilmore. I have stated previously--in fact, the last 
time I testified on Joint Strike Fighter was before the 
Appropriations Subcommittee on Defense in the Senate--that the 
Department has no choice but to make the F-35 work.
    It is critical to the future of tactical combat aviation in 
the Department and in the United States. And as far as I can 
tell and, as Mr. Stackley and General Bogdan have indicated, 
they and the Department are committed to making it work.
    However, as has also been mentioned by the chairman and 
others, this is an extremely complex undertaking. And I think 
the best way to characterize what is happening here is that the 
best projections that excellent program managers like General 
Bogdan make can be undone by the complexity and the unknowns 
that we continue to face. And so we can expect those kinds of 
unknowns to continue to arise and to have to deal with them.
    And so it is going to, in my judgment--and I don't regard 
this as a horribly profound observation--it is going to take 
longer to get this job done than anybody--and cost more than 
anybody now projects, but it is an important job to do.
    Mr. Wilson. Well, thank you very much for your clarity.
    And, General Bogdan, the F-35 is the only fifth-generation 
aircraft in production today. Please highlight for us what the 
F-35 fifth-generation capabilities will bring to the fight.
    General Bogdan. Congressman, the essence of the F-35 and 
what it can do for us and our allies now and in the future is a 
combination of different characteristics about the airplane, 
one of them being stealth, meaning, although not impossible to 
detect, very, very, very difficult to detect.
    And once you detect an airplane, you have to go through the 
kill chain to shoot it out of the sky, and this airplane, with 
its combination of stealth, electronic attack, electronic 
warfare capabilities, and its sensors, is very, very good at 
knocking pieces of that kill chain out.
    So it is a very survivable airplane in the most heavily 
defended, complex target environments where we wouldn't 
otherwise be able to bring other legacy airplanes. So it does 
that.
    The second thing it does is its combination of sensors, 
when working properly and fused properly, provides a picture of 
the battlespace that is unprecedented for our pilots today. And 
the ability to see the battlespace in that clarity and to take 
that picture and send it off board to other airplanes and other 
platforms is a valuable, valuable tool.
    So the combination of the F-35 being able to go where no 
other airplanes can go and its ability to see the battlespace 
in that kind of clarity creates an advantage for the United 
States that is critical in future air dominance.
    Mr. Wilson. And, again, thank you for your clarity on that.
    And, Secretary Stackley, I previously represented Marine 
Corps Air Station Beaufort, and they have just been--the 
community is so supportive and so enthusiastic about F-35Bs 
being located there. They are located.
    What is the current status of deployment there? And what is 
the future?
    Secretary Stackley. Yes, sir. Thanks for the question.
    Right now at Beaufort I think we have about a dozen 
aircraft on site. It will be a training command near term, long 
term. That dozen or so aircraft will build up to a total of 50 
across 2 squadrons, and you will see the Marine Corps training 
there.
    In the near term, you will see our partners--the U.K., 
Italy--training there, and that will be a long-term presence 
just like it is today for Marine Corps aviation training with 
this program. It is a critical part of the future of the Marine 
Corps here.
    Mr. Wilson. Well, I always like to point out that Beaufort 
has the right meteorological conditions, and that is very good 
weather, temperate, and very warm people.
    So thank you very much.
    Mr. Turner. Mr. Knight.
    Mr. Knight. Thank you, Mr. Chair. And I will just make a 
couple comments.
    I appreciate you changing the flight pattern for the Joint 
Strike Fighter because now it gets to fly over my house about 
10 times a week, and I love the sound of freedom, and it is 
always nice to see that.
    I will remind the members that the F-16, our last multi-
role fighter, went through about 138 versions and probably 15 
or 16 blocks. So they call it ``test flight'' for a reason. It 
is not proven flight. It is test flight.
    We are going into a new generation. It is a new technology. 
It is a new way for the warfighter to be further into the 
battle, further undetected into the battle. And so the F-35 is 
something new for the warfighter.
    Those are all the nice things I am going to say. But I am 
going to piggyback on Congressman Walz.
    I am a freshman. And in a year I am sure I am going to be 
sitting here and we are going to be talking about the F-35. And 
the F-35 is a program that is talked about in every one of our 
districts. Whether we have a base, whether we have an aircraft, 
it is talked about in every one of our districts.
    So not just hitting the test points, but being able to go 
past the test points and get on to the next issue that maybe a 
test program is having, and the faster that we can get on to a 
program that they see our Marines flying, that they see the 
Navy flying and, of course, our airmen flying is the best 
factor that we can talk about.
    So in a year, I am going to have great things to talk about 
the F-35, but I am hoping that we are going to have a lot of 
these points that the general said--that we are going to be 
knocking out and moving on.
    And then my last, last thing is our international partners. 
You don't have a great multi-role fighter in America without 
international partners and a good sale program to our 
international partners. That might be 40, that might be 45, 
percent. But that is one of the best and most motivating 
factors for any multi-role fighter, whether it be our F-16 or 
back to our F-4.
    So those are all the nice things I will say about the F-35. 
And I know it is hitting a lot of the test points. I talk to 
the pilots and the mechanics at Edwards probably on a weekly 
basis. And it is moving very quickly, and these last 6 months 
have been very, very good for the program.
    Thank you, Mr. Chair.
    Mr. Turner. Ms. Graham.
    Ms. Graham. Thank you, Mr. Chairman.
    Thank you all for being here.
    Just last month I had the opportunity to go on a 
congressional delegation trip to Eglin to familiarize myself 
with the F-35 program, and it was a wonderful opportunity. I 
was there with Chairman Turner and my fellow Floridian, 
Congressman Jeff Miller. And we share--our districts are right 
next to one another. And so we have the ability to share the 
unique training that is available in the Gulf of Mexico.
    And so my question goes to Dr. Gilmore, to the training 
opportunities in the Eglin Gulf training areas, and I am 
specifically interested in ensuring that the test ranges remain 
and have the capacity to test our F-35s and other future-
generation capabilities.
    So can you please talk about what the Department has been 
doing to test F-35s at the Gulf Test Range and, also, the 
efforts the Department is undertaking to ensure that our 
ranges, and this range in particular, are upgraded so that they 
can do the necessary tests on this fighter and future 
generations of fighters.
    Dr. Gilmore. The activities at Eglin have been focused on 
training with the early blocks of software, which has been 
noted, until Block 2B, don't provide any combat capabilities.
    So the training opportunities have been limited not because 
of any limitations in Eglin's infrastructure or capabilities, 
but because of what the aircraft up to this point have offered.
    Now, with Block 2B and beyond, the training opportunities, 
just because of the capabilities that will be provided, will be 
greater and there will be greater advantage taken of the 
capabilities of Eglin to serve as a training range.
    I think, as you know, most of the flight testing that we 
have been discussing here both for flight sciences and the 
aerodynamic performance of the aircraft as well as the 
performance of the missions systems has been taking place at 
Edwards Air Force Base.
    And that continues to be the plan because of certain unique 
assets that exist out there that are critical to testing the 
capabilities of this fifth-generation aircraft. And so I would 
expect that, in the future, Edwards and, you know, the Western 
Test Range will continue to play a very important role in 
testing.
    Some of the weapons testing can be done at Eglin, and I 
expect that there will be more of that testing that is done in 
the future as well as training that is done at Eglin.
    So, you know, there is a mix of kind of testing that is 
done and there are certain unique aspects out on the Western 
Test Range that really--that don't exist anywhere else that are 
the reason that most of that testing has been occurring out 
there. And, in fact, a large part--not all, but a large part--
of the operational testing will take place at Edwards as well.
    Ms. Graham. Can you just disclose without entering into any 
classified areas what is unique about Edwards that is not 
present at the Eglin test range?
    Dr. Gilmore. The things that I am discussing that are 
unique I would have to discuss with you----
    Ms. Graham. Okay.
    Dr. Gilmore. [continuing]. In the appropriate venue.
    Ms. Graham. I understand.
    Dr. Gilmore. So I can't really discuss them in an open----
    Ms. Graham. Well, I appreciate that.
    I would just like to ditto my colleague about how wonderful 
it is in north Florida. We have nice people, warm weather, and 
great opportunities to test these incredible air----
    Dr. Gilmore. And there will be testing and there can be 
weapons delivery events that are done there in the future, but 
there are certain unique aspects to the Western Test and 
Training Range. They have a test and training----
    Ms. Graham. Right.
    Dr. Gilmore. [continuing]. Range there, too. But I would be 
happy to discuss it with you in the appropriate forum.
    Ms. Graham. I appreciate that, Doctor. Thank you for your 
time.
    Thank you. I yield back the balance of my time. Thank you.
    Mr. Turner. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    I wanted to be here for this hearing, and I am sorry I had 
to leave.
    But, obviously, Cherry Point Marine Air Station is in my 
district, and as somebody said earlier, the F-35 is of great 
importance to many of us around the country.
    This was an article in Business Insider on March 27th of 
this year, ``The Marine Corps want[ing] to put flawed new 
fighter jets into service is the biggest F-35 story right 
now.''
    You have touched on some of this. But I have spent 13 years 
of my life finding out more about the V-22 than I ever thought 
I would learn about anything.
    I was here at the time that the Marine Corps came forward, 
Commandant Jim Jones, saying that, ``We have got to have the V-
22. The V-22 is going to replace the helicopters, heelicopters, 
from the Vietnam war, and we have got to have it.''
    I saw at that point what I was hoping--and no this is not 
talking about you--but the fact that the Marine Corps was so 
desperate to get the V-22 that a lot of decisions were made 
like not fulfilling the testing of the vortex ring state and 
how that would impact the V-22. They scrapped that testing to 
save $50 million.
    The plane that crashed that I have gotten involved in was 
the crash on April the 8th in Marana, Arizona, where 19 marines 
were burned to death--the co-pilot's wife lives in my district, 
Connie Gruber. Her husband was Brooks Gruber. The pilot John 
Brow's wife, Trish, lives in Steny Hoyer's district--and in 
trying to get the Marine Corps to write a letter to the wives 
saying that, ``At the time of this accident, we did not 
understand the vortex ring state. We didn't know how it would 
impact in a certain situation. So, therefore, the press release 
that we sent out the first month of that accident was very 
misleading, but the press has always picked it up as pilot 
error.''
    Now, what am I trying to get to? What I want to make sure--
and I think each one of you have done a great job, what little 
bit of time I was here today. And I have read many, many 
articles all around about the V-22, the positive and the 
negatives.
    But I hope that, if we are going to put the pilots up and 
put them into certain situations, that we know the best that we 
can know, that we are not going to jeopardize their lives, 
because I have seen the pain with Connie Gruber and Trish Brow 
that they have carried for 15 years because of misinformation 
about that accident.
    And my hope is, with the F-35--and you have done a great 
job of explaining today, and I know the chairman's been very 
involved in this--but let's not be so in a hurry to prove that 
we are right with this F-35 that we would jeopardize any pilot 
from anywhere.
    And I want to--with the minute and 30 seconds I have left, 
I really would like for you to--each one--in a very short 
period of time tell the American people that we are not going 
to jeopardize our pilots to prove a point that we have got to 
have the F-35.
    General Bogdan. Sir, I will go first.
    I have been an Air Force pilot for 31 years and have over 
3,300 hours in 40 different kinds of airplanes. I would never 
ever ask a pilot to do anything in the F-35 that I wouldn't do 
myself.
    Mr. Jones. Fair enough.
    General Bogdan. Safety in this program is our number one 
priority. I have independent air worthiness authorities that 
watch what we do. And I would never jeopardize a maintainer or 
a flier's life just to prove a point about a program. It is not 
worth it.
    Mr. Jones. That is why I respect you.
    General Bogdan. And I won't do it.
    Mr. Jones. I wish that had happened in the year 2000. But I 
saw the dishonesty at that time to prove a point, and that is 
why I feel so passionately and strong, and that is why I 
appreciate you, sir, for what you just said. Thank you.
    Secretary Stackley. Sir, I can only echo what General 
Bogdan had to say. Safety is a top priority on this as well as, 
frankly, all of our weapons systems developments.
    We do not compromise on air worthiness. Our standards are 
high and we do not compromise on those standards. And as far as 
bringing those standards to bear on this program, we have got 
our best and brightest working on this.
    Mr. Sullivan. Well, I think, you know, speaking as one of 
the agencies that does oversight on this, I have a lot of 
confidence in the program manager and the services to be able 
to deliver a very, very safe aircraft.
    And I think that this committee is a part of all of that. 
It is very important. GAO oversight is important. And it maybe 
was not as good as it should have been back in those days, and 
that is one thing that--I think this committee, the Congress, 
and DOT [Department of Transportation] and even GAO are very 
important to the process.
    Dr. Gilmore. The combat capability of Block 2B aircraft are 
going to be limited and there are going to be lots of work-
arounds that are required for pilots and for the maintainers. 
And that is already been discussed.
    So what I am trying to do is--and I know that the program 
office is trying to do this as well--but what I am trying to do 
is to make the operators as aware as I can of what they do have 
and what they won't have.
    And in Block 2B, unfortunately, there will be--if you ever 
wanted to use it in combat--and my understanding is, associated 
with the initial operational capability, the Marines hold out 
the prospect that they would use it in combat--I will continue 
to seek to assure that those pilots understand what they don't 
have as well as what they do have. And in Block 2B there will 
be a lot of what they don't have.
    Mr. Jones. Thank you, sir.
    Thank you, Chairman.
    Mr. Turner. Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman.
    And I would just do a quick follow-up. And I would like to 
get on this--and I think I heard my colleague and friend, Mr. 
Knight. When he talks about test flights, I listen. As we all 
know, his family holds an important position in American 
aviation history and test flights. And I think he is right.
    And I want to get on this issue about we can't expect a 
perfect product right out of the gate, but there is a question 
I want to follow up on this June 23rd fire.
    That was a relatively new aircraft. The way I understand 
it, it had 160 hours of flight time. It was flown inside its 
designated flight envelope; so, the pilot wasn't at fault. But 
despite all this, we had a new aircraft forming at a very easy 
place where it should have been. We lost the aircraft and 
nearly lost the pilot.
    So, General Bogdan, here is my question to you. We have 
been--the way I understand it, we were informed that the root 
cause was the F-35 last year was a lack of accuracy in the 
Pratt & Whitney's model on how the engine would behave under 
flight conditions on that specific aircraft. Specifically, the 
model did not apparently account for the rubbing you talked 
about between certain internal portions of the engine under 
flight conditions.
    Here is my questions to you. If that part of the model was 
not accurate, despite many years and the billions of dollars, 
what other parts of the engine performance could be inaccurate? 
And where is that high risk, in your opinion?
    And, secondly on this, the Marine Corps' version we are 
going to see later this year, am I correct that it is going to 
perform lower than what the expectations are? This is a test 
flight moving to that. So it is at 5.5 g's [force of gravity].
    Are you worried that the modeling is not taking into 
account, when this gets pushed further and further into its 
flight envelope, what is going to happen, General?
    General Bogdan. Great question, Congressman.
    You are precisely right that the original Pratt & Whitney 
model did not anticipate the amount of heat that would be 
generated when those two parts of the engine that do rub--and 
we intended on them rubbing, and they do rub when the 
airplane's maneuvering--but we did not nearly expect the kind 
of heat generation we saw because their model, again, failed to 
capture that.
    So what we did with the independent air worthiness 
authorities that work outside of my program office--they put 
their best and brightest in the Navy and the Air Force on this 
to get to that root cause.
    And one of the requirements we had before we ever designed 
a fix for the engine for that specific problem was to go back 
and take a look at those models and decide where else was there 
in terms of risk in those models.
    And the independent air worthiness authorities at NAVAIR 
[Naval Air Systems Command] and LCMC [Life Cycle Management 
Command] had to come and say that they understood where those 
models were adequate and where they weren't and what Pratt was 
going to do to improve that before they would even allow us to 
put the fix on the airplane to get back in the air.
    Mr. Walz. Were there improvements made to their model? Did 
you find things that----
    General Bogdan. Oh, yes, sir. There were a number of 
improvements, not the least of which was we looked at all the 
materials--all the material properties in the engine and 
revalidated whether the characteristics of those properties, in 
terms of heating and friction, were accurate and appropriate 
for what we knew to be the case.
    Additionally, a fighter engine moves. It moves this way. It 
moves this way. And it moves this way. We had to make sure that 
that model, which was describing how much the touching and 
rubbing would occur, was accurate, also, before we put those 
airplanes back in flight. That was part of the reason why the 
planes were grounded for as long as they were.
    Mr. Walz. So later this summer, when they go and they push 
that to 5.5 g's and they start pushing ahead of that, you are, 
I'm certain, as you said--and I know this to be the case--you 
are not going to put one of those----
    General Bogdan. Sure. We took the fix from--the interim fix 
from that engine mishap and we flight-tested it at Edwards on 
both engine variants and we took it up to the maximum g limit 
of the airplane, which is greater than what the Marine Corps is 
going to be allowed to do this summer.
    Mr. Walz. And, in this case, we didn't have a loss of life. 
So is it your assessment this is what test flights do? We 
learned a lot from this, we are better off, and it----
    General Bogdan. What I would tell you, sir, is no surprise 
discovery is good. But if you are going to have them, it is 
better to have them on the ground and it is better to have them 
early in a program before you have had thousands of engines out 
there.
    Mr. Walz. Okay.
    General Bogdan. So, from that perspective, we are okay. And 
I am just--we are just blessed that that pilot is okay.
    Mr. Walz. Great.
    I yield back, Mr. Chairman. Thank you for the additional 
time.
    Mr. Turner. Thank you, gentlemen. Thank you for your 
attention to this very important program. We know that you all 
have important responsibilities. And thank you for continuing 
to keep this committee informed as we look to trying to assist 
in the overall process.
    With that, we will be adjourned.
    [Whereupon, at 5:03 p.m., the subcommittee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                             April 14, 2015

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 14, 2015

=======================================================================
     

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 14, 2015

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY DR. WENSTRUP

    General Bogdan. Yes, we agree this is a valid concern/problem.
    The F-35 air system is experiencing some ``false'' Health Reporting 
Codes (HRCs) generated by the aircraft, then downloaded and filtered in 
ALIS. This is manifested in the early software versions (Block 1B and 
Block 2A) of the F-35 software. Many of the aircraft-generated HRCs do 
not require maintenance action (false codes) but do generate work 
orders that cause unnecessary administrative burden for maintainers and 
pilots to close out the action. The release of Block 2B software has 
resulted in a significant improvement of these false codes over earlier 
Block 1B/2A versions.
    The ``80% false positive'' figure is related to the work-orders 
that ALIS automatically generates after each flight. As an example, a 
given aircraft may generate 20 HRCs after a flight. Of those 20, any 
number of them (50%, or 10, in this example) may be automatically 
flagged as not valid and removed by systems within ALIS--this function 
is called the Nuisance Filter List (NFL). The remaining 10 HRCs would 
result in work-orders requiring maintenance personnel action. This is 
where the reports of ``80% false positives'' comes into play--eight of 
these work-orders are potentially false positives and require a 
maintainer to take administrative steps to close. The final two would 
be ``legitimate'' work-orders that warrant maintenance actions.
    Both the aircraft (false HRCs) and ALIS (proper filtering) 
contribute to this issue. Valid HRC software fixes are being addressed 
in the aircraft software via Software Product Anomaly Reports. With 
these software updates, ``false'' work orders for the maintenance 
personnel will continue to be reduced with each aircraft software 
release. The JPO is also updating the ALIS software to improve 
correlation of HRCs and consolidation of work orders. The ultimate goal 
with the improvements of both the aircraft off-board prognostics health 
monitoring system and ALIS software is negligible false positives by 
the end of 3rd Quarter of 2017.   [See page 18.]
                                 ______
                                 
            RESPONSE TO QUESTIONS SUBMITTED BY MS. DUCKWORTH
    General Bogdan. A deployable version of ALIS (Standard Operating 
Unit Version 2--SOUv2) is part of ALIS version 2.0.1 being fielded this 
summer to support to the U.S. Marine Corps Initial Operational 
Capability (IOC). A SOUv2 deployable system was fielded to Flight Test 
(FT) on May 3, 2015, to undergo a series of tests, including a formal 
Logistics Test and Evaluation process that will test all aspects of the 
Sortie Generation Process. ALIS version 2.0.2 is currently in work to 
support the U.S. Air Force IOC in Aug 2016. ALIS version 3.0 releases 
are planned to complete the ALIS capabilities required within the 
development program by October 2017. Each release will have an 
increasingly comprehensive testing regimen throughout the development 
process, including configuration item testing, integration testing, 
functional testing, information assurance testing, and deployment to 
flight test. User-defined performance standards and system level 
performance benchmarks are evaluated during integration and functional 
testing in the lab, as well as during flight test.
    The F-35 performance requirement for false-positives (false alarms) 
is 50 flight hours between false alarms. In comparison to other 
platforms, this performance is 2 to 25 times more stringent, e.g., 1.8 
hours for P-8 Poseidon and 23 hours for F-18 E/F Super Hornet. A zero-
percent false-positive is not a realistic expectation. However, the 
ultimate goal from the improvements in off-board prognostics health 
monitoring and ALIS software is to achieve negligible false positives 
by the end of 3rd Quarter 2017.
    An initial study on the impact of the current, ``less than 
required'' false-positive ratio was performed in January 2015 and 
showed a minimal increase in overall manpower needed to maintain war-
time sortie generation rate and availability. Specifically, the 
findings were that for a squadron of 10 aircraft requiring 77 
maintainers, one additional maintainer would be needed due to the 
current false-positive ratio. A follow-on study is being performed to 
refine the impact analysis accounting for other maintainability factors 
(e.g., average repair time), and will include associated costs. Results 
are expected in summer 2015.
    The JPO stands ready to brief the committee members or their staffs 
on the full ALIS development and fielding plan.   [See page 19.]

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 14, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. The program had planned to conduct a Block 2B 
operational evaluation that would have provided some operational 
performance information prior to the Marine Corps declaring an initial 
operational capability. a. What knowledge/information about aircraft 
performance would that evaluation have provided? b. In your view does 
deferring this operational evaluation increase risk to the Marine Corps 
ability to use the aircraft with 2B capabilities? c. What was the 
rationale for deferring the evaluation?
    Dr. Gilmore. a. The Block 2B OUE test design included an evaluation 
of mission effectiveness in air-to-surface attack, close air support, 
defensive counter-air warfare, and suppression/destruction of enemy air 
defenses in a limited threat environment. It also included an 
evaluation of the operational suitability of the F-35A and F-35B.
    b. The Marine Corps IOC decision is not and was not ever dependent 
on the execution of, or reporting the results of, the Block 2B OUE. The 
Block 2B OUE was an event-driven operational test, which the program 
could not enter until entrance criteria were met. Having said that, it 
is also important to note that the combat capabilities of the Block 2B 
aircraft will be very limited, and that the opportunities during the 
next year or more to understand the implications for combat of those 
limitations using operational testing will also be very limited.
    c. The decision to eliminate the Block 2B OUE was based on the 
assessment that the program could not satisfy the criteria to enter the 
test with sufficient numbers of operationally representative aircraft 
in the Block 2B configuration or trained pilots and maintenance 
personnel until mid-2016. Delaying the OUE until that time would have a 
significant negative impact on the program's ability to complete 
development of the full Block 3F set of capabilities in a timely 
manner.
    Mr. Turner. Your latest annual report raises concerns about the 
progress of the program in meeting some of its key reliability 
requirements. a. From DOT&E's perspective, what are the key reliability 
problems facing the program? Do you believe the program is taking 
adequate steps to address these problems? If not, what steps do you 
believe are needed? b. Current program plans indicate that IOT&E is 
scheduled to begin in 2019. Do you believe the program will be able to 
meet this schedule? What do you see as the primary challenges to 
beginning IOT&E on time? What are your primary concerns as the F-35 
program prepares for IOT&E?
    Dr. Gilmore. a. Reliability has not been improving at a fast enough 
rate to allow most of the Operational Requirements Document (ORD) 
derived metrics to meet expectations at maturity, with some exceptions. 
The contract specification reliability metrics, however, have been 
improving at an adequate rate. The program has identified several high 
driver components that contribute to lower than expected system 
reliability and recently established a reliability improvement program 
and growth plan. It is too soon to evaluate how well the plan is being 
executed and whether sufficient reliability growth is being realized. 
The program must continually run the process of identifying and 
tackling high drivers, since individual component reliabilities will 
likely change with the operational use of the aircraft as new 
capabilities are added to fleet operations. b. The current schedule of 
the program of record indicates IOT&E will begin in late 2017, not 
2019. The program is not likely to be able to meet this schedule. The 
primary challenges and concerns for entering IOT&E are: completing the 
modifications/retrofit of the early production OT aircraft, completing 
testing of the fixes to problems discovered thus far in Block 2B and 
Block 3i testing which have been deferred to Block 3F, correcting 
deficiencies that will inevitably be discovered in Block 3F testing, 
completing the technical data materials needed for Service personnel to 
maintain the aircraft, improving the functions of the Autonomic 
Logistics Information System, and improving aircraft availability 
through improved reliability.
    Mr. Turner. What are risks to Block 2B Fleet release occurring in 
mid-2015?
    Dr. Gilmore. Regarding the risk that Block 2B fleet release will 
occur in mid-2015: The program has completed the necessary Block 2B 
development and testing to support an air worthiness certification that 
allows the aircraft to be operated in the field. This air worthiness 
certification, when completed and released to the fleet later this 
year, will have significant aircraft operating limitations on all 
variants, limiting the utility of these Block 2B aircraft for combat.
    The test teams and the Program Office have done an admirable job of 
identifying the residual deficiencies that will affect combat 
performance. We won't have high confidence in the released capabilities 
to the field, however, because the operational test units will be able 
to only perform a few tactics development and operational test events 
envisioned between now and the end of 2015; this is primarily due to 
the problem of low aircraft availability. Continued discovery of 
deficiencies is likely well after the fleet release. It will be 
important for operational commands to carefully consider the 
limitations and level of confidence in the released capabilities before 
tasking F-35 units.
    The early production aircraft in Lots 3 through 5 all require 
extensive, depot-level modifications to assume the full Block 2B 
configuration. This process has only recently begun. Although Marine 
Corps operational aircraft have been prioritized and are planned to 
receive modifications this year, many aircraft, in particular the 
operational test aircraft, will not be complete all of the Block 2B 
modifications until early 2017.
    Mr. Turner. What are risks to completing Block 3F such that IOT&E 
can at least begin in early 2018?
    Dr. Gilmore. Risks to completing Block 3F so that IOT&E can begin 
in early 2018 include: Block 3F mission systems software integration on 
the program's current timeline will be challenging. The first release 
to flight test occurred in March, but Block 3F testing was suspended 
after only three flights as the program focused test aircraft on Block 
3i flight testing. Block 3F testing is not planned to restart until 
late summer 2015, at which time only a year will remain until the final 
release of 3F software is planned to enter flight test. By comparison, 
Block 2B took over two years from the first to final release. Block 3F 
mission systems flight test is currently planned to be a 26 month span. 
It is likely to take longer, ending in mid-2018. Block 3F includes a 
significant amount of weapons testing so that weapons can be added 
beyond the limited capabilities of Block 2B, which includes internal 
carriage and employment of only two air-to-ground weapons and one air-
to-air missile integrated in Block 2B. Block 3F will add external 
carriage of these weapons, SDB, JSOW, and AIM-9X, and the gun. This 
additional weapons testing is a significant risk area for Block 3F. 
Corrections to deficiencies in fusion which inhibit efficient 
employment in complex mission environments needed for the intended 
``full warfighting'' capability is also a significant risk area. 
Additional modifications are needed for Lot 3-8 aircraft to become the 
Block 3F configuration. The plan for installing these modifications is 
still under construction, and all the hardware modification kits are 
not yet on contract. The program has indicated that it is likely that 
these aircraft will be undergoing modifications as late as mid-2018, 
which could delay the start of IOT&E (because the start date of IOT&E 
depends on availability of OT aircraft in production representative 
configurations). Improving suitability by completing the technical data 
materials needed for Service personnel to maintain the aircraft, 
improving the functions of the Autonomic Logistics Information System, 
and improving aircraft availability through improved reliability.
    Mr. Turner. What more can be done or focused on to improve 
operational suitability?
    Dr. Gilmore. The program has focused on improving aircraft 
availability through increased spare parts, trying to make maintenance 
more efficient, and attention to failures that create down-time and 
long cycles of repair. Operational usage will be changing with the 
release of combat capability, even for training with the new 
capability. The program needs to add to its campaign a rigorous 
approach to improving the reliability of components that affect mission 
success--in other words, attack the high drivers of operational mission 
failures in offensive and defensive systems and air vehicle 
components--not just attack the high drivers of maintenance down time 
and high cost. The program has claimed to be ``turning the corner on 
maintainability''. This is an impossible assessment to make since the 
fleet of aircraft are still operating in non-combat configurations, 
unable to actuate weapons bay or countermeasure system doors, load or 
drop bombs, load or shoot missiles, and may complete the authorized, 
limited training missions without the use of aircraft sensors.
    Mr. Turner. What concerns do you have regarding the June 2014 
engine failure?
    Dr. Gilmore. The program has done a good job of explaining what 
happened but we do not fully understand why this happened. We do not 
understand what occurred differently than expected during the 
relatively restricted flight maneuvers on the flight prior to the 
engine failure that set up the failure event. The effect on engine 
performance and reliability with the modified stators is not well 
understood. We understand the engine contractor has acknowledged 
limitations in their models, particularly associated with axial 
movement within the engine, and have updated those models as a result 
of the engine failure. It is not clear what exactly the models did not 
correctly predict in the original design and use of the aircraft that 
turned out to be incorrect, or how the modeling was improved. We should 
also determine through additional analysis if the containment of the 
damage is sufficient, given the nature of the failure. In this case, 
the pilot was able to stop the aircraft and safely get away from the 
burning airframe. However, inflight failures of this kind should be 
examined to determine if the uncontained damage is tolerable from an 
aircraft vulnerability perspective.
    Mr. Turner. Do you feel that the program should pause further 
development and fix the deficiencies in Block 2B before moving on to 
Block 3F?
    Dr. Gilmore. No, the program should not pause further development 
to fix deficiencies in Block 2B before moving on to Block 3F. The 
program should do what it is doing now: determine what fixes are 
absolutely essential to the Services for fielding Block 2B capability 
for the USMC and for fielding Block 3i capability for the USAF, provide 
a solution, and focus on transitioning to Block 3F. The end-product of 
SDD depends, in part on two important hardware changes that are 
necessary for Block 3F capabilities: a) Technology Refresh 2 
processors, and, b) Gen 3 helmet. The program needs to transition test 
aircraft, and the development team, from Block 2B configuration to 
support testing of these systems as soon as possible. Remaining Block 
2B deficiencies can be worked on in the new hardware.
    Mr. Turner. In your statement, you highlight the likelihood of 
future cost growth and schedule delays for the F-35 program. Please 
explain your concerns?
    Mr. Sullivan. The program's acquisition strategy still contains a 
noteworthy overlap between flight testing and aircraft procurement. As 
we found in April 2015, with about 2 years and 40 percent of the 
developmental test program remaining, DOD is planning to significantly 
increase F-35 procurements over the next 5 years, from 38 aircraft per 
year to 90 aircraft per year.\1\ Over that same timeframe, DOD will be 
conducting developmental and operational flight testing of the 
aircraft's full warfighting capabilities--known as Block 3F--which are 
needed to perform in more demanding and stressing environments. With 
this complex and demanding testing still ahead, it is almost certain 
that the F-35 program will encounter additional discoveries, and 
depending on the nature and significance of those discoveries, the 
program could need additional time and money to incorporate design 
changes, retrofit aircraft, and complete testing.
---------------------------------------------------------------------------
    \1\ GAO, F-35 Joint Strike Fighter: Assessment Needed to Address 
Affordability Challenges, GAO-15-364 (Washington, D.C.: Apr. 14, 2015).
---------------------------------------------------------------------------
    Mr. Turner. Your statement mentioned that the program is making 
progress with manufacturing, however, you caution about challenges the 
program still faces. Please explain why you feel there is a need for 
caution.
    Mr. Sullivan. In April 2015, we found that Lockheed Martin 
continued to deliver more aircraft, the number of manufacturing hours 
needed to build each aircraft continued to decline, and efficiency 
rates continued to improve. However, we also found that a number of 
suppliers continued to deliver parts late to Lockheed Martin resulting 
in part shortages and inefficiencies on the production line. From 2013 
to 2014, the average number of part shortage occurrences at Lockheed 
Martin's manufacturing facility increased by 33 percent. If not 
adequately addressed, these part shortages will likely continue and the 
manufacturing inefficiencies will be amplified as production rates 
increase over the next 5 years.
    Mr. Turner. In this testimony as well as in the past, you have 
consistently raised long-term affordability as a key area of risk. In 
your opinion, has the department addressed this concern?
    Mr. Sullivan. Our analysis indicates that the F-35 program will 
require an average of $12.4 billion per year through 2038 to finish the 
current development program--expected to end in 2017--and procure all 
of the remaining United States aircraft. DOD plans to steeply increase 
its funding requests over the next 5 years to support a planned 
increase in aircraft procurement, and then projects that it will need 
between $14 and $15 billion annually for nearly a decade. Given other 
significant fiscal demands weighing on the nation, and other costly, 
high priority acquisition efforts, like the KC-46A Tanker, the Long 
Range Strike Bomber, the DDG-51 Class Destroyer, and the Ohio Class 
submarine replacement competing for limited resources, it is unlikely 
that the program will be able to receive and sustain such high and 
unprecedented levels of funding over this extended period. In a time of 
austere budgets, we believe fully funding all of the department's 
priorities at the same time will undoubtedly force DOD to continue to 
make difficult trade-off decisions. DOD has not fully addressed our 
affordability concerns, and for that reason we recommended in our April 
2015 report that DOD conduct an affordability analysis of the program's 
current procurement plan that reflects various assumptions about future 
technical progress and funding availability.
    Mr. Turner. GAO and DOT&E have both noted that the program has made 
progress but still faces challenges as it moves into later stages of 
flight testing while at the same time significantly increasing 
production rates. a. What do you see as biggest challenges facing the 
F-35 program going forward? b. Do you have concerns with the engine's 
reliability and costs; software development and flight testing; 
manufacturing and quality rates and supplier performance? Please 
explain. c. Do you believe the program will complete the developmental 
testing in 2017 as currently planned, and within current estimated 
costs? d. To what extent does your assessment account for the impacts 
of potential future test failures, like the ones encountered this year 
with the engine and bulkhead?
    Mr. Sullivan. We believe that the two biggest challenges facing the 
program are affordability and concurrency. Our analysis indicates that 
the program will require an average of $12.4 billion per year through 
2038 to finish the current development program--expected to end in 
2017--and procure all of the remaining United States aircraft. DOD 
plans to steeply increase its funding over the next 5 years to support 
a planned increase in aircraft procurement, and then projects that it 
will need between $14 and $15 billion annually for nearly a decade. 
Given other significant fiscal demands weighing on the nation, and 
other costly, high priority acquisition efforts, like the KC-46A 
Tanker, the Long Range Strike Bomber, the CVN-78 Ford Class Aircraft 
Carrier, and the Ohio Class submarine replacement competing for limited 
resources, it is unlikely that the program will be able to receive and 
sustain such high and unprecedented levels of funding over this 
extended period. In addition, with more demanding and complex testing 
still to be done, the program faces the risk that new technical 
problems--including those related to software--will be discovered and 
additional design changes will be needed. As we found in April 2015, 
with about 2 years and 40 percent of the developmental test program 
remaining, DOD is planning to significantly increase F-35 procurements 
over the next 5 years, from 38 aircraft per year to 90 aircraft per 
year. Over that same timeframe, DOD will be conducting developmental 
and operational flight testing of the aircraft's full warfighting 
capabilities--known as Block 3F--which are needed to perform in more 
demanding and stressing environments. With this complex and demanding 
testing still ahead, it is almost certain that the F-35 program will 
encounter additional discoveries, and depending on the nature and 
significance of those discoveries, the program could need additional 
time and money to incorporate design changes, retrofit aircraft, and 
complete testing.
    We believe that the F-35 program continues to face challenges in 
several key areas. First, as we found in April 2015, F-35 engine 
reliability had been consistently worse than the program expected, and 
improving engine reliability would likely require additional design 
changes and retrofits, which typically translate into additional cost. 
At the time, Pratt and Whitney--the engine contractor--officials had 
identified a number of design changes that they believed would improve 
the engine's reliability. Some of those changes had been funded and 
were being incorporated into the engine design, worked into production, 
and being retrofitted onto fielded engines. Several other design 
changes had been identified, but were not yet funded. In addition to 
these reliability improvements, the program was also in the process of 
developing design changes to address the root cause of a significant 
engine failure and fire that occurred in July 2014. Second, while the 
F-35 program has made progress in software development and flight 
testing, we believe that cost and schedule risks still remain. F-35 
software development has been consistently behind schedule and has 
needed more rework than expected to address deficiencies found during 
flight testing. For example, the program experienced a higher than 
expected amount of test point growth in 2014--nearly twice what was 
expected--largely because of software rework. If these trends continue 
the program will face cost and schedule challenges as it works through 
the complex and demanding Block 3F software development and flight 
testing. Finally, in April 2015, we found that Lockheed Martin 
continued to deliver more aircraft, the number of manufacturing hours 
needed to build each aircraft continued to decline and efficiency rates 
continued to improve. However, time spent on scrap, rework, and repair, 
as well as the average number of part shortage occurrences at Lockheed 
Martin's facility, have been higher than expected. We are concerned 
that if these trends continue, Lockheed Martin could have difficulty 
improving its manufacturing efficiency at its expected rates. We 
believe that if these problems are not resolved they will likely be 
amplified as production rates increase over the next 5 years.
    Whether or not the program will complete developmental testing in 
2017 primarily depends on DOD's ability to complete Block 3F software 
development and to execute the flight test program as planned. At the 
time of our April 2015 report, DOD expected to complete the final 40 
percent of F-35 developmental testing by 2017. Over that timeframe, the 
test program will be focused on flight testing the aircraft's full 
warfighting capabilities--known as Block 3F--which are needed to 
perform in more demanding and stressing environments. With this complex 
and demanding testing still ahead, it is almost certain that the F-35 
program will encounter additional discoveries. If these additional 
discoveries turn out to be significant, like the bulkhead and engine 
discoveries in 2014, the program's plan to complete developmental 
testing in 2017 would be at risk, and additional time and money would 
be needed to incorporate design changes, retrofit aircraft, and 
complete testing.
    Mr. Turner. GAO and others continue to raise concerns about the 
long term affordability of the F-35 acquisition program, noting that as 
procurement ramps up over the next 5 years annual funding requests are 
projected to increase significantly and by 2021 reach $15 billion and 
stay at that level for a decade. At the same time other high profile 
DOD programs will be competing for funds, including the KC-46A Tanker, 
new bomber, and the Ohio class submarine replacement. a. What are the 
key factors driving the current F-35 procurement plans-production rate 
levels and funding levels? b. Given federal budget constraints and the 
competition for funding within DOD, do you believe that sustained 
annual funding of that magnitude is going to be achievable? c. Has the 
Department considered different procurement options, and if so, what 
has been considered? Are there any viable alternatives if the current 
plan is not affordable?
    Secretary Stackley. The Department continues to fully support the 
F-35 Lightning II program. We plan to steadily increase production for 
the U.S. Services, reaching full rate production of 120 aircraft per 
year by 2022, with the Department of Navy intending to procure 20 F-35B 
and 20 F-35C aircraft per year. Ramping up to this rate of production 
is necessary to provide the dominant, fifth-generation aircraft capable 
of Anti-access/Area Denial (A2/AD) operations and to begin replacement 
of our aging combat aircraft fleet. Given continued support for the 
program by Congress and other stakeholders, plus its technical progress 
and steadily declining costs, we are confident that sustained annual 
funding for the program is achievable and necessary. F-35 prices, 
including engine and profit, have steadily declined lot after lot, 
reaching 3-4 percent reductions per year for the last two years. 
Increased procurement rates are key factor in year-over-year cost 
reduction and any future procurement reductions could drive up per-unit 
cost. Price reductions are expected to continue, leveraging on-going 
initiatives, such as the Blueprint for Affordability, engine War on 
Cost, and Cost War Room. By 2019, the price of an F-35A model is 
expected to be between 80 and 85 million dollars, with commensurate 
cost reductions for F-35B and F-35C. The Department continues to study 
the correct force mix and successfully engage in initiatives to drive 
down costs. To maintain our air superiority advantage, it is a national 
imperative to recapitalize our aging legacy fighter fleet, and there is 
no alternative to the F-35 with its unique 5th generation survivability 
and lethality to maintain that advantage against emerging threats.
    Mr. Turner. In Mr. Sullivan's testimony he notes strong concerns 
about the reliability and potential implications related to the F-135 
engine. a. Has the program identified the root cause of the engine fire 
that occurred in June 2014, and has a long-term solution been 
identified to fix the problem? If so please describe the root cause and 
discuss the cost, schedule, and performance implications related to the 
identified solution(s)? b. Has the Department called upon outside 
experts to validate the root cause and/or proposed solution? When do 
you expect to have verified through flight testing that the problem has 
been fully resolved? c. Engine reliability has been a concern for some 
time, what steps are you taking to improve the overall reliability of 
the engine? What are the cost implications and will those costs be 
borne by the government or the contractor?
    General Bogdan. A. Yes. The root cause of the incident was 
unpredicted, excessive heat generated by two parts of the fan rubbing 
which caused part of the fan rotor to break. The debris from the rotor 
exiting the engine fan case resulted in significant damage to the 
engine and aircraft. Pratt & Whitney has developed an interim fix that 
opens the clearance between those parts which results in negligible 
performance loss. Engines on flight test assets have received the 
retrofit. The long-term solution is pending material testing soon to 
begin with a projected down-select of a fix in 2nd Quarter, CY 2015. To 
date, $5.6M has been allocated from System Development and 
Demonstration (SDD) management reserve to cover non-recurring 
engineering costs. The program's development cost and schedule baseline 
contained margin to address these types of technical discovery and the 
completion of SDD is still expected in Oct 2017.
    B. The Department has not called on outside experts. The root cause 
and proposed solution were vetted through independent propulsion 
experts from the Air Force, Department of the Navy and Pratt & Whitney. 
The interim fix remains a candidate as do two alternate rub systems. 
The interim fix has been validated through flight test and will be 
delivered in new production engines starting this month. New production 
parts are expected to be available for new production engines after 
flight test by mid-2016 if the interim fix is not chosen. While the 
interim fix has not demonstrated any measurable deficiencies, there is 
a concern that a minor loss in fuel efficiency or durability may 
manifest later in an engine's useful life which is why we continue to 
entertain an alternative design as a final fix.
    C. With the exception of the before mentioned failure at Eglin AFB, 
the F135 engine has performed well. The high maintenance drivers on 
both F-35A/C and F-35B models have been identified, solutions to most 
have been developed and validated in SDD, and will be incorporated into 
production. The data indicates that the F-35A/C engines will recover to 
reliability projection curves with these fixes. The SDD program is 
currently adding reliability improvement tasks that are expected to 
help the F-35B propulsion system as well as adding margin to the F-35A/
C system. Reliability-driven design improvements are paid for by the 
Government through the SDD contract at no additional cost (management 
reserve). The Government extracts financial consideration on fixed 
price incentive production contracts for parts not meeting 
specification. Unit cost is not projected to be affected due to planned 
reliability improvements.
    Mr. Turner. Both GAO and DOT&E highlighted that the program made 
adjustments to its test plans over the past year--including the 
deferral and/or elimination of test points, and the restructuring of an 
operational evaluation planned for Block 2B capabilities. a. What 
events required the program to adjust its test program over the past 
year? What are the implications to completing the test program going 
forward? Do you still project that the development flight testing will 
be completed in 2017 and in time to support IOT&E? b. As mentioned 
earlier, the program deferred an operational evaluation of the Block 2B 
capabilities, can you explain to the subcommittee the rationale for 
deferring this test and the implications, if any, to the Marine Corps 
as they plan to declare IOC later this year?
    General Bogdan. a) The Block 2B Operational Utility Evaluation 
(OUE) was canceled in favor of focused, limited assessments due to 
limited test assets. This action has afforded the time needed to build 
a plan for a successful Initial Operational Test and Evaluation (IOT&E) 
for Block 3F.
    The Integrated Test Force (ITF) focused priority effort on Mission 
System (MS) testing throughout 2014 in order to meet timelines. The MS 
effort focused on completing Block 2B test points by prioritizing test 
points that fed critical-path analysis reports and certification. The 
result was deferral of a small portion of Block 3F Flight Science (FS) 
testing, which currently being performed.
    The reduction of flight test points originally planned is part of 
the normal, on-going process to manage the development program. The 
test plans are routinely revisited to add, change or delete test 
points, based on the results of previous tests and the needs of the 
certifying agencies. In this case, test points were reduced last year 
based upon what was required to verify requirements and certify the 
system in accordance with Service technical authorities' (Naval Air 
Systems Command and Life Cycle Management Center) standards, 
specifications and best practices. All test point reductions were 
vetted through the independent technical authorities for their 
concurrence prior to making any adjustments.
    Current projections show the completion of Developmental Test (DT) 
flight test in the summer of 2017. The delivery of mature software, on 
schedule, remains the #1 risk in flight test.
    b) The F-35 Program was not going to have ample Operational Test 
(OT) test jest in the 2014-15 timeframe. The decision, in conjunction 
with Director, Operational Test & Evaluation (DOT&E), was to prioritize 
our DT MS testing. Incorporating OT jets and pilots (including USMC 
aircrew) in DT is mitigating the impact to the Marine Corps, and is not 
on the critical path to Marine Corps Initial Operational Capability 
(IOC) declaration. The Block 2B capabilities will continue to be 
bolstered in upcoming software releases.
    Mr. Turner. In his statement, Mr. Sullivan describes positive 
trends in aircraft manufacturing, but he also identifies challenges, 
including supplier quality problems and late part deliveries, that the 
program faces as it plans to significantly increase production rates 
over the next five years. a. Do you agree with GAO's assessment of 
manufacturing progress and challenges? b. What risks or challenges that 
you think are the most critical as production rates increase and what 
steps to do you think are necessary to help mitigate these concerns?
    General Bogdan. A. JPO agrees with the GAO assessment that 
production progress is trending in the right direction and that 
challenges with supplier performance exist. The JPO remains committed 
to taking the necessary steps to closely monitor and mitigate impacts 
to production as rates increase in the coming years.
    B. The three most significant challenges facing production are 
Supplier Performance, Outer Mold Line/Seam Validation, and Rate 
Readiness to meet peak production.
    <bullet>  Poor supplier performance leads to costly out of station 
work in assembly operations, schedule delays, and opportunities for 
poor quality. To alleviate this, Contractor teams are working closely 
with suppliers to reduce lead and span times, optimize parts inventory 
and availability, and reduce repair turnaround time and long term 
resolution to quality issues (root cause and preventative action).
    <bullet>  Outer Mold Line/Seam Validation is critical to aircraft 
performance. Low observable capability requires tight tolerances, which 
pose a challenge to manufacturing. With this in mind, improvements in 
metrology, design tolerance alleviation, and producibility/process 
improvements are being implemented to yield better performance in 
meeting manufacturing needs and reduce assembly span times.
    <bullet>  Significant production rate increases are expected 
through full rate production. Ensuring stability throughout fabrication 
and assembly is critical to meeting production ramp rates. Key enablers 
include:
        <bullet>  Continuing the pace of reductions in scrap, rework, 
        and repair, which has seen a 75 percent improvement since 2011;
        <bullet>  Incorporating variation management improvements as 
        basic tool sets for quality engineers; and
        <bullet>  Rigorous and continual use of rate readiness risk 
        management as part of incremental Production Readiness Review 
        assessments
    Mr. Turner. Ever since the first projection of a trillion-dollar 
lifecycle cost came out, we've seen arguments about how much the F-35 
would actually cost to operate. We now have real-world experience with 
more than 100 aircraft. Understanding that we are still not in regular 
operations, what are you seeing as the actual cost per flight hour for 
each of the variants?
    General Bogdan. The actual Cost per Flight Hour (CPFH) to date for 
each variant has been below the projected amount for that timeframe 
(FY13-14). The current CPFH projections for the steady state period 
(2035 to 2046) are $34.20K (BY12$) for the USAF F-35A, $38.14K (BY12$) 
for the USMC F-35B/C, and $36.76K (BY12$) for the USN F-35C. We expect 
further reductions in CPFH as we introduce more aircraft to the fleet 
and continue to realize reliability maturation and rate price 
improvements. We are on track to be below the steady state CPFH denoted 
in the Office of the Secretary of Defense, Acquisition, Technology, and 
Logistics (OSD/AT&L) Acquisition Decision Memorandum (ADM) targets of 
$35.2K (BY12$) for the USAF F-35A, $38.4K (BY12$) for the USMC F-35B/C, 
and $36.3K (BY12$) for the USN F-35C.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. DUCKWORTH
    Ms. Duckworth. Section 701 of the Agile Acquisition to Retain 
Technological Edge Act (H.R. 1597) proposes that your office consider 
increases in cost and schedule delays related to your office's 
activities. A joint study conducted last year by the Under Secretary of 
Acquisition, Technology, and Logistics and DOT&E found that testing was 
the least common reason for delay and that ``all programs that had 
problems in test conduct also had at least one other reason that 
contributed to delay.'' As with cost, the vast majority of schedule 
delays were caused by fixing problems that must be addressed before the 
program could move forward. How do you think this proposal might 
positively or negatively impact your office's activities?
    Dr. Gilmore. Although DOT&E does indeed take cost and schedule 
considerations into account when determining what testing is needed and 
feasible, this proposed provision will have effects that undermine 
realistic operational testing of weapon systems. The House report on 
this proposed provision states: ``The committee remains concerned that 
some of the unforeseen increases in cost and schedule in major defense 
acquisition programs are a result of requirements changes or other 
matters that arise during operational test and evaluation (OT&E).'' As 
noted in the question, there is no evidence that operational testing 
has had this effect; therefore, the proposed provision is based on a 
false premise that belies arguments made by some that the proposal is 
benign in its intent. The proposal's actual effects will also not be 
benign because of the perverse incentives program managers face within 
the Department's current acquisition system. As noted by GAO, 
``Postponing difficult tests or limiting open communication about test 
results can help a program avoid unwanted scrutiny because tests 
against criteria can reveal shortfalls, which may call into questions 
whether a program should proceed as planned.'' (GAO, Best Practices: A 
more Constructive Test Approach is Key to Better Weapons System 
Outcomes, GAO/NSIAD-00-199.) Thus, the proposed provision will 
strengthen and magnify program managers' incentives, irrespective of 
the merits of DOT&E's arguments, to plan and program for little, if 
any, realistic operational testing, and then to claim inflated costs 
and dire consequences if the testing that DOT&E argues is needed to 
evaluate performance is conducted. The need to counter this 
longstanding perverse incentive is a key reason Congress established 
DOT&E in the mid-1980s. Congress established the office and mandated 
its focus on assuring testing under realistic combat conditions, with 
independent reporting to the Secretary and the Congress, because of 
well-documented concerns with unexpected, poor performance of expensive 
weapon systems. The poor performance was unexpected because testing was 
not conducted under realistic combat conditions, and inaccurate reports 
of the results of the inadequate testing that was done were provided to 
the Congress and the Defense Department's senior leadership. 
Unfortunately, these concerns remain just as valid today as they were 
during the mid-1980s because the incentives for unrealistic testing and 
inaccurate reporting remain strong.
    In a recent appearance at the Center for Strategic and 
International Studies, Senator John McCain stated ``Many of our 
military's challenges today are the result of years of mistakes and 
wasted resources. According to one recent study, the Defense Department 
spent $46 billion between 2001 and 2011 on at least a dozen programs 
that never became operational.'' A number of these failed programs, 
including Comanche, Crusader, Future Combat Systems, Armed 
Reconnaissance Helicopter, and the Presidential Helicopter never 
entered operational testing, notwithstanding the expenditure of 
billions of dollars on their development. Other programs, including the 
Expeditionary Fighting Vehicle and the Early Infantry Brigade Combat 
Team Combat Systems, did undergo operational tests, with very negative 
results. Clearly, delays and cost increases caused by operational 
testing played no role at all in the noteworthy failures these programs 
suffered. Rather, poorly defined and unachievable requirements, 
inaccurate, if not misleading assessments of technology readiness and 
technical feasibility, as well as poor and misleading estimates of 
program costs and schedules were all causal. These problems, and the 
perverse incentives that create them, should be the focus of a serious 
acquisition reform effort.
    Ms. Duckworth. To the extent possible, please detail the timeline 
for achieving a deployable and fully operational ALIS system and what 
the associated testing and performance benchmarks are along that 
timeline. Additionally, please detail what constitutes ``acceptable'' 
performance in terms of the system identifying false-positives. That 
is, what is the acceptable rate for the system returning false-
positives? Ex. Is 0% a realistic expectation? Lastly, please detail 
what the associated maintenance costs have been, to date, due to the 
false positives and how much of that cost will be decreasing as well 
what the costs have been in terms of increased manpower hours for both 
uniformed personnel as well as contractor support. Going forward, what 
do you expect those cost to be in terms of increased manpower hours for 
both uniformed personnel as well as contractor support on the ALIS 
system?
    General Bogdan. A deployable version of ALIS (Standard Operating 
Unit Version 2-SOUv2) is part of ALIS version 2.0.1 being fielded this 
summer to support to the U.S. Marine Corps Initial Operational 
Capability (IOC). A SOUv2 deployable system was fielded to Flight Test 
(FT) on May 3, 2015, to undergo a series of tests, including a formal 
Logistics Test and Evaluation process that will test all aspects of the 
Sortie Generation Process. ALIS version 2.0.2 is currently in work to 
support the U.S. Air Force IOC in Aug 2016. ALIS version 3.0 releases 
are planned to complete the ALIS capabilities required within the 
development program by October 2017. Each release will have an 
increasingly comprehensive testing regimen throughout the development 
process, including configuration item testing, integration testing, 
functional testing, information assurance testing, and deployment to 
flight test. User-defined performance standards and system level 
performance benchmarks are evaluated during integration and functional 
testing in the lab, as well as during flight test.
    The F-35 performance requirement for false-positives (false alarms) 
is 50 flight hours between false alarms. In comparison to other 
platforms, this performance is 2 to 25 times more stringent, e.g., 1.8 
hours for P-8 Poseidon and 23 hours for F-18 E/F Super Hornet. A zero-
percent false-positive is not a realistic expectation. However, the 
ultimate goal from the improvements in off-board prognostics health 
monitoring and ALIS software is to achieve negligible false positives 
by the end of 3rd Quarter 2017.
    An initial study on the impact of the current, ``less than 
required'' false-positive ratio was performed in January 2015 and 
showed a minimal increase in overall manpower needed to maintain war-
time sortie generation rate and availability. Specifically, the 
findings were that for a squadron of 10 aircraft requiring 77 
maintainers, one additional maintainer would be needed due to the 
current false-positive ratio. A follow-on study is being performed to 
refine the impact analysis accounting for other maintainability factors 
(e.g., average repair time), and will include associated costs. Results 
are expected in summer 2015.
    The JPO stands ready to brief the committee members or their staffs 
on the full ALIS development and fielding plan.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. VEASEY
    Mr. Veasey. The area of sustainment for the F-35 program is 
critical as it moves forward both with the services and the partner 
nations. Last December, the F-35 Joint Program Office assigned F-35 
Regional Maintenance, Repair, Overhaul and Upgrade (MRO&U) capability 
for airframes and engines for the European Region. Italy will provide 
the F-35 initial airframe MRO&U capability, and Turkey will provided 
the initial engine heavy maintenance capability. I understand the JPO 
is now preparing to launch requests for information for the European 
component MRO&U Hub.
    Q1. Can you please elaborate on the component repair strategy, 
including a timeline for additional decisions?
    Q2. Is the JPO employing a comprehensive sustainment approach where 
the approximate 750 components are supported at a single F35 partner 
nation MRO&U facility?
    Q3. The UK will purchase the largest number of F-35s in Europe, and 
the U.S. Air Force has announced it will base two operational squadrons 
of F-35 at the Royal Air Force Lakenheath facility.
    Q4. What plan does the JPO have to utilize this significant 
footprint in the UK when it considers MRO&U sites?
    Q5. Do you intend to put component facilities in the UK to support 
this already significant F-35 investment?
    General Bogdan. The JPO's component repair strategy is to establish 
repair capabilities for all repairable components which have been 
identified as Core, consistent with Title 10 U.S. Code Section 2464, in 
the U.S. Military Service Depots (MSDs). As the international 
participants and U.S. Service fleets expand overseas, the need for 
repair capabilities outside the U.S. also increases. The JPO is 
currently analyzing current and expected capacity in the MSDs (much of 
the repair capabilities will be stood up in the CONUS MSDs over the 
next 5-7 years) as well as the expected component repair demands. This 
analysis will result in recommendations of components that could have 
repair capabilities OCONUS to support international participant demand 
and compete for above/non-core workload.
    Of the approximately 750 components, the JPO is currently analyzing 
the top 35 that show the highest repair demands based on forecast 
modeling and fleet data. When this analysis is concluded, the JPO will 
brief a draft plan for the assignment process of the 35 components to 
senior DOD leadership not later than late May 2015. The JPO plans to 
release the initial Requests for Information (RFIs) in December 2015 to 
assess Partners' interest in component repair assignments. Over the 
next two years, the JPO will continue to assess repairable components 
to determine feasibility for overseas repair assignments.
    No single partner would be responsible for repairing all 750 
components, and many components will never have the repair demands to 
necessitate standing up repair capabilities other than that in the 
CONUS MSDs. The JPO envisions a single repair source per region per 
component, with no duplication of repair capabilities within Europe.
    The JPO anticipates the UK will respond to the component RFIs. 
Those responses will be considered, along with any other nations' 
responses, to determine the best value repair location. All 
recommendations for assignment will be based on the ``best value'' 
assessment which includes: past performance, technical capability, 
capacity, and cost. The final determinations will be made by senior DOD 
leadership and will invariably be shaped by strategic and political 
considerations.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
